 Department of Health and Human Services
                OFFICE OF

      INSPECTOR GENERAL





STATE PRACTICES IN USING RELATIVES

              FOR FOSTER CARE





        ..v
                   Richard P. Kusserow

     (J            INSPECTOR GENERAL

                       GEl - 06- 90- 02391
         ,Ja
                                           , "




                      EXECUTIVE SUMMAR Y

 PURPOSE

 The purpose of this study is to provide detaled infonnation on how each State uses
 reviews, and supports foster homes provided by relatives of those children in the legal
 custody of State child welfare agencies. It describes the experience and policies of the
 fifty States and the Distrct of Columbia concernng the use , approval , monitorig, and
 social service and financial support of extended famly members in the child welfare
 system. It also summarzes the legal arangements available to relatives who assume
pennanent care for these children.


BACKGROUND

The practice of placing children for whom the State is legally responsible with extended
famly members is not a new one. Child welfare agencies have long used " specific " foster
homes drawn from famlies ' infonnal support networks to care for children in their legal
custody. l In such placements, adults with biological or emotional ties to children were
approved to care for only those parcular children. Stadards for approving these homes
were less fonnal, if not less strngent, and services and financial support were based on
individual case assessments rather than entitlement though policy.

Clear policy and anecdota evidence indicates, however, such placements were considered a
last resort in many State child welfare systems and were actively discouraged in others.
Certnly the use of " specific " foster homes was considered less withn the limts of agency
policies than more traditional placements with foster parents having no previous
relationship to the child. For example , in some States, children placed with relatives,
whatever their legal status vis-a-vis the State child welfare agency, were frequently
considered the responsibilty of the Assistace Payments staff who often supervised Aid to
Famlies with Dependent Children payments to the relatives. The role of these placements
in the child welfare system was rarely clear in either policy or practice. Their limited
numbers allowed public policy makers to avoid developing clear, consistent policies in ths
area.

As indicated in our companion report 2 most States have experienced increases in the
proporton of children in foster care placed with extended famly members over the last
decade. Largely as a result of State attempts to implement the requirements of the


        1 Lewis , Robert and Mark Fraser
                                           Blending Fonnal and Infonnal Networks in Foster Care
Children and Youth Services Review , vol. 9, pp. 153- 69, 1987.

        2 " Using Relatives for Foster Care
                                              " OEI- 06-90- 02390,   June 1992.
Adoption Assistance and Child Welfare Act of 1980 (P. L.     96- 272) and the Indian Child
Welfare Act of 1978     (pL.95- 608), child welfare staff began to look more frequently to
relatives as a source of temporar care for children in the custody of their agencies.
Furter, lack of adequate    numbers of more traditional foster parents has forced States to
examne many " new " options for substitute care. Among these are placements with
relatives, either as regular foster homes or under speci ized care arangements.

Relative foster-care placements have increased faster than the abilty of regulatory
processes to address their unique characteristics. Additionally, litigation concernng
relative foster parents ' rights in some States has resulted in more fonnal policy
requirements for pars of the foster-care process, while leaving related processes largely
unregulated.

Without fully developed policy support for staff and administrative decision-makng
concerng such placements , State child-welfare agencies have been coping with growing
proportons of children cared for by relatives in the last several years. The dilemma of
most State agencies now is how to regulate this relative foster-care arangement so as to
offer adequate protection and support to the children for whom they are responsible , while
avoidig requirements that undermne the goals of extended family care or of other famly
support and services programs.

Many States now are attempting to develop policies that address the issues raised by
relative foster-care placements. Review of how different States have addressed regulatory
and practice questions may be helpful to States involved in policy development or
examation.


SCOPE

The focus of our research was children , in the legal custody of the States ' primar child
and famly service agencies, who were placed with individuals related to them by blood or
law. The study was limited to State legislation , policies, other legal constraints , and data
from agency infonnation systems.


METHODOLOGY

In order to describe States 'legal frameworks for using relative foster-care parents and to
determne current official practice , we conducted telephone interviews with public foster-
care officials in each of the fifty States and the Distrct of Columbia (hereafter referred to
as a State). In the interviews, we discussed with these offcials the laws, policies , and
procedures of the chief child welfare agencies in each State regarding use , monitorig and
support of relative foster-care providers. We also requested copies of written materials on
unique aspects of programs.
 From these interviews, we developed draft summares of State policies in terms of use
 approval and monitoring, financial and other support services and permanency options.
 We submitted these summares to State agency admiistrators for their review and
 verification. When there were serious discrepancies between the information from the
 original interview and the State-corrected summar, we contacted admstrators by
 telephone to resolve the differences. Because there is so little formal policy in ths area
 some agency requirements and practices could not be fully determned. States from which
 agency staf did not submit verication or     corrections are printed in the report in 
   italics.


SUMRY OF STATE POLICIES AND PRACTICES
Most States have policies requirng staff to explore foster care by relatives as a potential
temporar placement. Over half of States go furer than this and require staf to consider
relatives as the most preferable placement for children in foster care. Two States have
policies that discourage State assumption of legal custody for children who can be cared
for by relatives, preferrng that the relatives themselves assume custody of the children.

The proporton of children in the custody of State child welfare agencies placed with
relatives has increased demonstrably in 18 States, and was perceived by admistrators to
have increased in an additional 17 States. The reasons for these increases vared
enormously among the states, but the following thee were the most frequently reported:

               State policies that encourage placements with relatives;
               the shortge of more traditional foster famly homes; and
               litigation which has brought large numbers of previously established
               placements with relatives into regular State foster-care program statistics.

Twenty States license, or approve as licensable , all or most relative foster homes. The
remaining States may license some relative foster homes, but use less formal and less
strgent review   mechansms for some or all relatives ' homes. In these States the licensing
status of the home is frequently related either to the relatives ' desire to secure foster-care
maintenance payments (for which licensing is usually a prerequisite) or to relatives
willigness to meet certain State licensing requirements.


In all but two States, licensing (or approval) is a requirement for receipt of foster-care
payments. Some States add additional requirements. Nine States reimburse relatives only
if the placement is eligible for Federal foster-care funds , i.e., only if the home is licensed
the child was eligible for Aid to Famlies with Dependent Children (AFDC) while living
with his/her parents, and legal custody requirements have been met. In all States, most
children in the custody of the State child welfare agency are covered by medical assistance
programs. Exclusions from social services, when they exist , usually are related to the
licensing status of the relatives ' homes rather than directly to the relationship to the child.
All States allow adoption by relatives , and wil consider such adoptive arangements for
adoption subsidies. All but two States allow guardianship or permanent legal custody to
transfer to relatives; but in four States the cours so rarely grant guardianship, that State
agency personnel do not consider it a realistic option. Famly members who secure
custody of related children lose foster-care payments, but five offer subsidies to assist
relatives in assuming guardianship for children. 
  In some States , continuing care by a
relative is recognized as a permanent foster-care outcome which results in diminished
agency and court intervention in the placement. In all but two States, however , children
who must remain in the legal custody of State child welfare agencies and the physical care
of relatives are considered in long-term or continuing foster care.
            .. ...
                . .. ...... ......
                              .. ..............................................
                                                                          ..
                                                                         ..       ............................................................................................................................................................................................................................................................................................................................................................................... .
                                                                              .....




                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY


SUMMARY OF STATE PROFIES


STATE PROFIES

    Alabama
    Alaska.
    Arzona
    Arkansas
    Californa
    Colorado
    Connecticut
    Delaware. . . .
    Distrct of Columbia
    Florida
    Georgia
    Hawaii
    Idaho
    illiois.
    Indiana
    Iowa
    Kansas
    Kentucky
    Louisiana. .
    Maine
    Marland. .
    Massachusetts
    Michigan. . .
    Minnesota
    Mississippi
    Missouri
    Montaa
   Nebraska
   Nevada
   New Hampshire
   New Jersey
            . .. .. .. .. .. .. . . ... ... .... .... .... ........................................ .... .................................................... .. .... ................ .... ...... .... .................................................................... ...... ..............
                                                                                                                                                                                                                                                    .. ..            .. ..




New Mexico
New York
Nort Carolina

Nort Dakota

Ohio
Oklahoma
Oregon
Pennsylvana
Rhode Island
South Carolina
South Dakota
Tennessee
Texas
Uta
Vermont
Virginia. .
Washington .........

West Virginia.
Wisconsin
Wyoming. . .
      SUMMARY                                  STATE PROFILES

Most States have policies requirng staff to explore foster care by relatives as a potential
temporar placement. Over half of States go furer than ths and require staf to consider
relatives as the most preferable placement for children in foster care. Two States have
policies that discourage State assumption of legal custody for children who can be cared
for by relatives , preferrng that the relatives themselves assume custody of the children.

The proporton of children in the custody of State child welfare agencies placed with
relatives has increased demonstrably in 18 States, and was perceived by administrators to
have increased in an additional 17 States. The reasons for these increases vared
enormously among the states, but the following thee were the most frequently reported:

       . State  policies that encourage placements with relatives;
       . the shortge of    more traditional foster famly homes; and
         litigation which has brought large numbers of previously established placements
        with relatives into regular State foster-care program statistics.

Twenty States license , or approve as licensable, all or most relative foster homes. The
remaining States may license some relative foster homes, but use less formal and less
strgent review   mechansms for some or all relatives ' homes. In these States the licensing
status of the home is frequently related either to the relatives ' desire to secure foster-care
maintenance payments (for which licensing is usually a prerequisite) or to relatives
wilingness to meet certn State licensing requirements.

In all but two States, licensing (or approval) is a requirement for receipt of foster-care
payments. Some States add additional requirements. Nine States reimburse relatives only
if the placement is eligible for Federal foster-care funds , i. e., only if the home is licensed
the child was eligible for Aid to Famlies with Dependent Children (AFDC) while living
with his/her parents , and legal custody requirements have been met. In all States, most
children in the custody of the State child welfare agency are covered by medical assistance
programs. Exclusions from social services, when they exist , usually are related to the
licensing status of the relatives ' homes rather than directly to the relationship to the child.

All States allow adoption by relatives, and wil consider such adoptive arangements for
adoption subsidies. All but two States allow guardianship or permanent legal custody to
transfer to relatives; but in four States the courts so rarely grant guardianship, that State
agency personnel do not consider it a realistic option. Famly members who secure
custody of related children lose foster-care payments, but five offer subsidies to assist
relatives in assuming guardianship for children. In some States, contiuing care by a
relative is recognized as a permanent foster-care outcome which results in diminished
agency and court intervention in the placement. In all but two States, however, children
who must remain in the legal custody of State child welfare agencies and the physical care
of relatives are considered in long- term or continuing foster care.
The table on page 3 summarzes State policies and practices in five main areas: the
State s policy concernng the use of relatives, the documented or perceived trend in the
proporton of children placed with relatives , the mechanism for approving homes as safe
and adequate, requirements for receipt of full foster-care maintenance, and available
permanency options. Below is important information for reading the table.

      The five-year trend in the proporton of children placed with relatives is described for al States.
      For some States, detennnation of the diection of the trend was based upon data system reports of
      the actual number of chidren in relative placements. In other States, because data for the five yeas
      could not be retreved trend descriptions are based upon estiates of State foster care
      admistrators. Trends based on data are indicate by a solid circle (-); trends based upon
      admnistrtors ' estimates are indicated by open circles (0). States in which admstrators could not
      provide data or estimates are identified by question marks (???).

      States which license only relatives who wish to care for non-related children in addition to extended
      famly members are not considered as licensing relatives. The licensing categories are defmed as
      follows:

          Licensing - a process defined in policy though which State child welfare agencies review
          specific characteristics of individuals and their homes, attest that the individuals can provide a
          safe and secure home for children in foster care and therefore can have offcial pennssion to
          provide foster care. States may call this process licensing, certfication , or approval.
          Approval - a process defined in policy which attests that a home meets most or al licensing
          criteria but fals short of routine licensure/certfication; grants limited pennssion to provide
          foster care only to a specifc child or children.

          Formal Review - a process defined in policy or official procedures which detennnes the
          safety and suitabilty of potential relative foster famly homes. Homes are assessed using
          certn pre- defined stadads which are more flexible than licensing criteria.
          Unspecified Review - a process not offcially defined for assessing the general safety and
          suitabilty of relative foster famly homes.

     Required for support (RQ' D FOR SUPPORT) in the table refers to charcteristics of foster care
     placements which offcial State policies require in order for relative foster parents to receive foster
     car maintenance payments. The foster care maintenance payments may be solely State-provided
     or, when placements are licensed and meet al other Title IV-E requirements , may have some level
     of Federa Financial Parcipation. In most States , relatives not receiving foster care maitenance
     payments may be eligible for AFC on behalf of children in their care. The cha does not present
     requirements for receiving such income support assistace.

     Guardianship refers to guardianship by the relative. This category also includes the trsfer      of
     temporar or pennanent legal custody to the relative.

     Long-term foster care includes continued recognized foster care by the relative and pennanent
     foster care as a legaly recognized foster-care pennanent planning outcome.


Readers are cautioned that State policies and practices vary widely. Please refer to
an individual State s profie for information on how that State operates its specific
programs.
-- -.;;.                 ::.......
                    .. ........
                          ,,    .....
                                ...       .. .....::
                               ............
                                        .'.
                                  ... . .
                          . ........     ..
                                          ..........
                                        . .. ........          . . ...
                                                              ..
                                                              ......
                                                  .::.......::.
                                                         "'... ..   .   ......:........::... .. .. ..
                                                                   .. ....
                                                                       ...
                                                                       ...       . ....
                                                                             .. ...
                                                                                ...
                                                                                 . ...                       ...
                                                                                                          . ... .......
                                                                                                                      . ..
                                                                                                                         -' ..



              SUMARY OF STATE PRACTICES
                 IN RELATIV FOSTER CARE
POLICY ON USE\.S-YEAR APPROVAL; REQ' D FOR PERMANENCY
OF RELATIVES \.TREND PROCESS SUPPORT PLAN OPTIONS


                  % 1'0    ". o        . '" 0
                                                                                                    " og -c
                               d;"
                                               & C7                                                                         -bOo
                                                                        t.
                                                                             c9                     6 o                          d'
                                     Q' I:            Q' I:Q' I:Q'
Alabama . . ... 0 ..
  STATES             Q'        I:         Q'                                              I:   Q'          Q'



Alaska
Arizona .

Arkansas
Colorado .. ..... 0
California . 

Connecticut
Delaware             . ... 0 ..
Florida
District of Columbia
nenraia . ... 0 .

                       .. 0


Idaho
Ilinois. . ..                          .. 0

Iowa
Indiana..
0
Kansas .. ... 0

Kentuckv
Maine . 

Marvland
Massachusetts .

Michi!!an
Minnesota .
.

Missouri  ... 0
Mississinni .
Montana . .. 0
Nebraska ..                                                     

Nevada                                

New Jer
New Mexico

New York .

           ev
New Hamnshire
                                       .. 0
Ohio
North Carolina

North Dakota ... 0 ...
Oregon . ..... 0 

Oklahoma
               . . ... 0
Pennsvlvania
Rnone r land
South Carnlina 



Utah . . .0.
South Dakota
Texas
                    0 ..               .0
n .

Tennessee . ..
U'      .

 t Virginia 0 ..
Wvomin!! . .... 00.
Wisconsin
                          STATE PROFILES

ALABAMA

Children in the custody of the State Deparment of Human Resources routinely are
provided foster care by relatives. State policy requires staf to give fIrst consideration to
relatives when foster care is needed for children. Ths requirement has been a par of State
policy since 1980. There are no situations defined by regulation that automatically
preclude consideration of relative placements for children.

State data include only those children in approved relative foster homes. The incidence of
such placements has shown a slight decline over the past five fiscal years; State
admnistrators were unable to provide reasons for ths decline.

Approval and Monitoring of Relative Foster Homes

The State approves foster famly homes for receiving children in the custody of the State.
Relative homes can be approved. Approval requirements are the same as those for non-
relatives ' homes: the relatives ' homes must meet basic health , safety, and space standards;
and , relatives must be capable of providing care and protection for the child as
demonstrated though a psychosocial assessment, references, and criminal and protective
service records checks. The relatives also must paricipate in basic foster-parent training;
ongoing training is encouraged.

Children also may be placed in the homes of relatives who are not approved. These
homes are reviewed. These relatives are not required to submit health documents,
complete a criminal records check, or attend training. The homes are assessed in terms
stabilty, health and safety, and the abilty of the relative to meet the needs of the child.

The decision to seek approved status usually is made by the relatives. Admistrators
believed most relative foster homes were approved.

Foster-care staf must visit all approved foster homes (both relatives and non-relatives)
every 90 days. Staf must visit children in approved homes every six months , although in
practice children are seen monthly or more frequently. The Deparent of Human
Resources routinely does not provide specialized training to staff concernng supervision
relative foster-care placements.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the related
foster home is approved. Any child in the custody of the State child welfare agency is
eligible for medical and denta benefits.                   excluded from any social
                                           Relatives are not
services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remai with relatives may be adopted
by relatives, with State support continuing only if the child is eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements. Finally, children may be placed in the
permanent custody of relatives with the State agency relinquishing all rights and
responsibilties for the child.




ALASKA

Children in the custody of the Deparent of Health and Social Services routinely are
provided foster care by relatives. State policy demands staff undertake a search for
relatives when a child enters care and consider relatives as the fIrst alternative for foster-
care placement. This requirement became par of State policy prior to 1976. There are no
situations defined by regulation that automatically preclude consideration of relative
placements for children.

Placements with relatives routinely are not identified in the State data system , but
administrators state the number of such placements has risen slightly over the last five
years largely as a result of increased worker awareness of the importce of kinship ties.

Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children. Relative foster homes can
be licensed based upon the same criteria as non-relatives ' homes: the relatives ' homes
must meet basic health, safety, and space standards; and , relatives must be capable of
providing care and protection for the child as demonstrated though a psychosocial
assessment and review of references. To be licensed , relatives also must parcipate in
foster- parent orientation and ongoing training. Requirements are not rigid , however, and
those which are not perceived to affect the safety of the child can be waived when there is
an alternative method for meeting the intent of the requirements.

Children also may be placed in unlicensed homes. These homes are reviewed. Staff
review the stabilty, health and safety of the homes and conduct psychosocial assessments
of the famlies. These assessments are generally comparable to those conducted for
licensing homes.
The decision to seek licensed status usually is made by the relatives, based upon their need
for foster-care maintenance payments. Administrators could not provide information
concernng the proporton of licensed relative foster homes to unlicensed relative foster
homes.

Monitoring of all foster homes is case- dependent. The Deparment of Health and Social
Services has no specific policies or training concernng supervision of relative foster
homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relatives are not excluded from any social services which the
State makes available to non-related foster parents.

Permanency Options

Permanent care by a relative is a permanency goal in the State. Children with permanent
plans calling for them to remain with relatives may be adopted by the relatives with State
support continuing if the children are eligible for subsidized adoption. Courts may grant
relatives guardianship of the children and , if the children are considered " hard to place
the guardianship may by subsidized by the Deparent of Health and Social Services.
Finally, children may remain in permanent foster care with relatives, with the State
continuing to supervise and (if licensed) support these placements.




ARIZONA

The Administration for Children , Youth and Famlies places children in its care in relative
foster homes. Prior to 1990 , the agency had to seek special approval from the Juvenile
Courts in order to place with relatives. Now the agency can assess the famly situations
and determne if children should be placed in these homes. Additionally, the agency
frequently aranges for temporar care of a child by a relative while the parents, who
retain custody of the child , receive treatment. There are no situations defined by
regulation that automatically preclude consideration of relative placements for children.

Until July, 1991, the State data system separately identified children placed with
unlicensed relatives, but placements in licensed relative homes were not distinguished from
other licensed placements. Administrators state the number of relative placements has
risen over the last five years largely as a result of less strngent court requirements for
makng such placements.
Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed if they meet the same stadards as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space stadards; and
relatives must be capable of providing care and protection for the child as demonstrated
though the licensing process, references, and criminal and protective service record
checks. To be licensed , the relatives also must parcipate in foster-parent orientation and
ongoing training. Requirements cannot be waived.

Children also may be placed in unlicensed relative homes. These homes are screened by
foster-care staff who check the home to ensure its safety and conduct criminal and central
registr record checks. Relatives must agree to protect the safety of the child and
cooperate with plans for parental visitation.

The decision to seek licensed status usually is made by the relatives. Administrators could
not provide information concernng the proportion of licensed relative foster homes to
unlicensed relative foster homes.

Child protective and/or case management staff must visit children in all foster homes (with
relatives and non-relatives) every 30 days. The agency routinely does not provide
specialzed training concernng supervision of relative foster-care placements.

Financial and Other Support Services for Relative Foster Parents

Licensed relatives receive the same level of financial benefits as any licensed foster parent.
Unlcensed relatives are eligible upon request to receive daily clothing and personal
allowances and other special allowances. Such special allowances may include assistance
for education expenses, graduation expenses , summer school tuition and fees, camp fees,
and diaper expenses. Children in the custody of the State and placed with relatives are
eligible for medical and dental benefits. Relatives are not excluded from any social
services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans callng for them to remain with relatives may be adopted
by relatives , with State support continuing only if the children are eligible for subsidized
adoption. The court may grant guardianship to relatives, and the Administration for
Children, Youth and Famlies would discontinue foster-care monitoring and reimbursement.
Children may stay in long- term foster care with the State agency continuing to support and
monitor the placement until the children reach 16 and a permanent plan of Independent
Living is indicated.
ARKANSAS

The Deparment of Human Services wil place children in its care with relatives , but only
if the staf have exhausted all other possibilties. The agency does have responsibility for
a signficant number of " out-of- home protective service cases. "         situations, the
                                                                    In these
agency has supervision and service responsibility for a child in the care of a relative as   a
result of a court order, but custody remains with the parent or temporary with the
relative.

The incidence of relative foster-care placements has shown a slight increase over the past
five fiscal years. State administrators stated ths increase was largely due to greater
acceptace of the practice   by the State offce of the   agency.
Approval and Monitoring of Relative Foster Homes

The Deparment of Human Services certifies foster famly homes for receiving children in
the custody of the State. Relative foster homes must be certified based upon the same
criteria as non-relatives ' homes: the relatives ' homes must meet basic health , safety, and
space stadards; and, relatives must be capable of providing care and protection for the
child as demonstrated through a psychosocial assessment and review of references. The
relatives also must paricipate in foster- parent orientation. Requirements such as length of
marage and age , as well as the source of homes ' water supply can be waived.

Foster-care staff must visit all children and foster parents every 30 days. The Deparment
of Human Services does not provide special training concerning supervision of relative
foster homes.

Financial and Other Support Services for Relative Foster Parents

All relatives receive foster-care maintenance payments since the criteria for such payments
is that the home be certfied. All children in foster care are eligible for Medicaid uness
child is covered by private insurance or has independent resources. Relative foster homes
are eligible for the same social services as non-relative foster homes.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for adoption
subsidies. The relative may petition for guardianship for the child , or may be granted
permanent custody of the child. In both of the latter situations, Deparment of Human
Service s assistance to the child and foster family ceases unless the court orders the agency
to provide furter social services.

CALIFORNIA

Children in the custody of the County Welfare Deparments routinely are provided foster
care by relatives. State policy requires that staf consider   relatives as the first alternative
for foster-care placement. Ths requirement has been a par of State policy since 1982.
There are no situations defined by regulation that automatically preclude consideration of
relative placements for children.

The incidence of relative foster home placements has increased greatly over the past five
fiscal years; State administrators cited the increased number of drg-affected children
entering the foster-care system and the growing demand for foster homes as the most
signficant reasons for the increase.

Approval and Monitoring of Relative Foster Homes

           relative foster homes are exempt from licensing. Relatives ' circumstaces and
In general ,
background are reviewed by county social services staff. There are no official work
standards for completing these reviews.

Foster-care staff must visit all children in foster homes every 30 days unless a child has no
problems caused or aggravated by the placement , the placement is stable , or the child is
placed with a relative. Staff must visit children in excepted placements , including children
in relative foster homes, on a quarerly basis. The Deparment of Social Services routinely
does not provide specialzed training concernng supervision of relative foster- care
placements.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care may receive federally reimbursed foster-care
maintenance payments for children eligible for payments under the Federal foster-care
program. Relatives are not eligible to receive reimbursement under any State programs.
Any child in the custody of the State child welfare agency is eligible for medical and
dental benefits. Licensed relatives are not systematically excluded from any social services
which the State makes available to non-related foster parents , but county offices may
decide to limit some services.

Permanency Options

Children with permanent plans callng for them to remain with relatives may be adopted
by relatives , with State support continuing only if the children are eligible for subsidized
adoption. The court may approve a permanent plan of long- term foster care for children
with agency supervision and judicial monitoring continuing until these children reach
emancipation.
The relative may be appointed as guardian for the child and become solely responsible for
the child, or the relative may be named guardian with the child remainig the dependent of
the court. In either case , non-related individuals who assume guardianship for children
may be eligible for continued financial subsidies for the children s needs; relatives are
excluded from ths program. Ths exclusion may soon be challenged in Federal Distrct
Court though a suit against the City of San Francisco.




COLORADO

Children in the custody of the Deparment of Social Services routinely are provided foster
care by relatives. The State has had policies in place for several years specifically
addressing relative placements and encouraging staff to consider such placements for all
children. While some counties may have policies precluding placement of some children
with relatives , State regulations contan no such limitations.

State data systems could not accurately provide information on the number of children
placed with relatives for the years surveyed. Current data are available. If the relative
does not receive foster-care reimbursement, the child does not appear on the State s largely
fmancial Foster Care Information System. Identification of the placement as a " relative
foster care placement" depends upon entering two classification codes in the Child
Tracking System (a separate system), so under countig of this population is likely.
Administrators reported that the number of foster children placed with relatives appears to
be growing, largely due to increased emphasis in the Deparment on the importce of
maintainig kinship ties.

Approval and Monitoring of Relative Foster Homes

Counties certfy foster famly homes for receiving children in the custody of the State.
Relative foster homes can be certfied based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space stadards; and, the
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment , references , and criminal and protective service record
checks. To be certfied , the relatives also must parcipate in foster-parent orientation and
ongoing training. The Deparment may waive some requirements as a result of an appeal
by the relative.

If relatives ' homes are not certified , the foster-care arangement is referred to as a relative
placement. Counties study the relatives ' circumstances and background. There are no
official standards , however , for completing these studies. Each county determnes its own
standards for ensuring the safety of relatives ' homes.
The decision to seek licensed status usually is made by the relatives, and usually centers
upon whether the relative has or intends to have other children placed in his/her home.
Therefore, few relative foster homes are certfied.

If the relative   s home is a certified foster home, the child and foster parents are visited at
least every thrty days. Uncertified placements with relatives are monitored by the child'
social worker on a case-specific schedule. For purposes of supervision, uncertified relative
placements are treated much the same as protective service cases in which children remain
in their own home. Generally, the Deparment does not provide specialized traing to
staf concernng supervision of relative foster-care placements.
Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is certfied and children are otherwise eligible for Federal Title IV - E reimbursement.
Any children in foster care under Title IV- E or children receiving SSI are eligible for
medical and dental benefits. Other children in foster care must meet Medicaid eligibility
requirements in order to obtain coverage through public programs.

Relatives are not excluded from any social services which the State makes available to
non-related foster parents. In some cases, relatives may receive funds or services though
a State program " Placement Alternatives " available in some counties , to enable children to
remain in less restrctive settings.

Permanency Options

Children with permanent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. The court may approve a permanent plan of long- term foster care for children
with agency supervision and judicial monitoring continuing until these children reach
emancipation.

The relative may be appointed guardian for the child and become solely responsible for the
child , or the relative may be named guardian but legal custody remains with Deparment of
Social Services. If the Department remains legally responsible for the child, foster-care
payments may continue if these were available before the assumption of guardianship by
the relative. The transfer of guardianship and legal custody to the relative is considered a
permanent home , and court supervision may end.
 CONNECTICUT

Children in the custody of the Deparment of Children and Youth Services routinely are
provided foster care by relatives. Since 1988, the State has had policies in place
specifically addressing relative placements and encouraging staff to consider such
placements for all children.

The proporton of children placed in relative foster care has shown a slight increase over
the past five fiscal years. Admnistrators attrbute ths increase to greater awareness among
staff of the importce of maitaing kinship ties and to the lack an adequate pool of
foster homes.

Approval and Monitoring of Relative Foster Homes

The Deparent licenses foster parents for receiving children in the custody of the State.
Relative foster homes must be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space standards; and,
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment , a review of references , and record checks. The
relatives also must paricipate in foster- parent training. Deparmental regulations allow for
provisional approval of foster homes for up to 45 days while home studies are completed.
Relative foster homes are more likely to receive such provisional licensure.

Foster-care staff determne an appropriate schedule for visiting each foster home on a case-
by-case basis. Because of their stability, relative foster homes generally are visited less
frequently than those headed by non-relatives. The Deparent does not provide specific
training on supervision of relative foster-care placements.

Financial and Other Support Services for Relative Foster Parents

All relatives are eligible to receive foster-care maintenance payments since the criteria for
such payments is that the home be licensed. All children in foster care are eligible for
Medicaid unless the child is covered by private insurance or has independent resources.
Relative foster homes are eligible for the same social services as non-relative foster homes.

Permanency Options

Children with permanent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for adoption
subsidies. The Department or the relative may petition for guardianship for the child with
the Deparent's assistance to the child and foster famly ceasing once guardianship is
awarded to the relative.
Children may remain in long- term foster care with relatives. In such cases , the
Deparment of Children and Youth Services and the courts continue to supervise the foster-
care placement.




DELAWARE

Children in the custody of the Division of Child Protective Services routiely are provided
foster care by relatives. State policy demands staf consider relatives and close famly
frends as the first alternative for foster-care placement. This requirement has been a par
of State policy since the early 1980s. There are no situations defined by regulation that
automatically preclude consideration of relative placements for children.

State data concerng children in relative foster-care placements are only available since
1989, and include most but not all children placed with relatives or family friends. A few
kiship placements neither are monitored nor supported; therefore , the children involved
are not included in the Deparment' s data base. Administrators stated that the number of
placements with relatives has remained relatively stable over the last five years.

Approval and Monitoring of Relative Foster Homes

The State approves foster famly homes for receiving children in the custody of the State.
Most relative foster homes are approved based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space stadards; and
relatives must be capable of providing care and protection for the child as demonstrated
though a mutual assessment process which is par of pre-service preparation, a review of
references, and a crimial background check. The Deparment does waive some
requirements on a case-by-case basis.

Children also may be placed in unapproved relative foster homes. These homes are
reviewed and monitored by the staff providing services to the children and famlies. There
are no stadards in policy for such reviews.

The decision to become approved foster parents usually is made by the relatives. About
25% of all relative foster homes are approved.

Foster-care staff must visit all children and foster parents every 30 days. The Division of
Child Protective Services does not provide special training concernng supervision specific
to relative foster homes.
Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is approved. Most are referred to the Division of Social Services to apply for
AFC. Any child in the custody of the State child welfare agency is eligible for medical
and dental benefits. Relatives are not excluded from any social services which the State
makes available to non-related foster parents , and may even receive special funding for
extraordinar service needs.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in long- term foster care with the State agency
continuing to support and monitor placements, or children may be placed in the permanent
custody of relatives with the State agency relinquishing all rights and responsibilties for
the child.




DISTRICT OF 
    COLUMBIA

Children in the custody of the Deparment of Social Services routinely are provided foster
care by relatives. Policy allows staff to consider interested relatives for " special foster
care " placement. This allowance has been a par of State policy since before 1980. There
are no situations defined by regulation that automatically preclude consideration of relative
placements for children.

Administrators were unable to provide data on the number of children placed with
relatives, but did indicate that use of relatives as foster parents has been relatively stable
over the last five years.

Approval and Monitoring of Relative Foster Homes

Relatives who provide foster care to children in the custody of the Deparment are not
licensed. These homes are considered " specialized foster homes. " These foster homes are
subject to informal review by children s workers and , if safe , the relatives may care only
for the specified related children. The stadards for these reviews are not specified in
policy.

Foster-care staff must visit all children and foster parents or special foster homes every 30
days. The Deparment of Human Services does not provide special training concerning
supervision of relative foster homes.
Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if they request
such assistace. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relatives are not excluded from any social services which the
State makes available to non-related foster parents.

Permanency Options

Children with permanent plans callng for them to remain with relatives may be adopted
by relatives with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the Deparent
continuing to support and monitor placements. The relatives may secure guardianship of
the child with the agency relinquishing all rights and responsibilities for the chid , or the
cours may order " thrd-pary " custody to the relative with the Deparment continuing to
provide supervision and services to the relatives or child.




FLORIDA

The Department of Health and Rehabiltative Services discourages relative foster-care
placements. The Department prefers that interested relatives assume custody directly for
children. The Departent does provide social services, but not financial, support to
relatives with custody of children who might otherwise be in the care of the State. This
approach to using relatives has been part of State policy since the early 1980s. There are
no situations defined by regulation, however, that automatically preclude consideration of
relative placements for children.

Foster-care placements with relatives are indistinguishable from other foster-care
placements in the Department s data system, and children in the custody of relatives are
not in foster care. Administrators did indicate that relative placements have increased
slightly over the last five years. This increase appeared to be associated with greater
relative demands for financial assistance which can only be obtained if the child is in
foster care.



Approval and Monitorin$! of Relative Foster Homes

The State approves foster family homes for receiving children in the custody of the State.
Relative foster homes must be approved based upon the same criteria as non-relatives



         3 Itacs indicate 

                          State staf did not respond to our written request to   verify interview infonnation
reported here.
homes: the relatives ' homes must meet basic health, safety, and space standards; and, the
relatives must be capable of providing care and protection for the child as demonstrated
through a psychosocial assessment, references, and criminal and protective service records
checks. To be approved, the relatives also must participate in foster-parent orientation
and ongoing training.

Foster-care staff must visit all children in foster care and foster parents every 30 days.
a relative assumes temporary custody of a child, the Departent supervises the home for
six months on an as-needed basis. The Department of Health and Rehailtative Services
does not provide special training concerning supervision of relative foster homes or
relative custody arrangements.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relative foster parents are not excluded from any social
services which the State makes available to non-related foster parents.

Permanency OPtions

Children with permnent plans callng for them to remain with relatives may be adopted
by relatives with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permnent foster care with the State agency
continuing to support and monitor placements. The Departent prefers relatives to
assume temporary custody or guardianship of children in their care with the State agency
relinquishing all rights and responsibilties for the child after six months.




GEORGIA

Chidren in the custody of the Deparent of Human Resources routiely          are provided
foster care by relatives. State policydemands staf consider relatives as the fIrst
alternative for foster-care placement. Ths requirement has been a par of State policy
prior to 1980. There are no situations defined by regulation that automatically preclude
consideration of relative placements for children.

The number of children placed with relatives remained relatively stable thoughout the
1980s but increased significantly in 1990. Administrators were not certain why such an
increase took place.
Approval and Monitoring of Relative Foster Homes

The State approves foster famly homes for receiving children in the custody of the State.
Some relative foster homes are approved based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space stadards; and, the
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment , references, and criminal and protective service records
checks. To be approved , the relatives also must paricipate in foster-parent orientation and
ongoing training. Deparment staf may waive some stadards.

Children also may be placed in unapproved relative foster homes, or free homes. The
relatives ' homes are evaluated by foster-care staff and , generally, must meet the same
stadards as approved homes. Training requirements are waived.

The decision to seek licensed status usually is made by the relatives. Most relatives do not
seek approval.

Foster-care staff must visit all children and foster parents every 30 days. The Deparment
does not provide special training concernng supervision of relative foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is approved. Any child in the custody of the Deparment of Human Resources is
eligible for medical and dental benefits. Relatives are not excluded from any social
services which the State makes available to non-related foster parents , although there may
be some differences in individual counties ' delivery of services.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements on a less intense basis. Assumption of
guardianship by the relative is possible, but is a little used option. More frequently, the
cours transfer temporar custody to the relative from the Department.
HAWATI

Children in the custody of the Deparment of Human Services routinely are considered for
placement with relatives. State policy demands staff to place children in the least
restrctive, most family- like environment possible. There are no situations defined by
regulation that automatically preclude consideration of relative placements for children. .

The Deparment s data system could not separately retreve all relative foster homes for the
period in question, but admnistrators indicated there had been a slight increase in the
incidence of such placements over the last five years.

Approval and   Monitorig of Relative Foster Homes

The State certfies foster famly homes for receiving children in the custody of the State.
Relative foster homes must be certified based upon the same criteria as non-relatives
homes, unless the home is limited to one specific child. The relatives ' homes must meet
basic health, safety, and space standards; and , the relatives must be capable of providing
care and protection for the child as demonstrated though a psychosocial assessment
references, and criminal and protective service records checks. Relatives are encouraged
parcipate in foster- parent orientation. If the home is a " specified home " the Deparent
may waive certification stadards on a case-by-case basis.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is certfied , and the child is eligible for Title IV - E foster-care payments. Any child
in the custody of the State child welfare agency is eligible for medical and denta benefits.
Relatives are not excluded from any social services which the State makes available to
non-related foster parents.

Permanency Options

Permanent care by a relative is a permanency goal in the State. Children with permanent
plans calling for them to remain with relatives may be adopted by the relatives with State
support continuing only if the children are eligible for subsidized adoption. Courts may
grant relatives guardianship of the children , and the guardianship may be subsidized by the
Deparment Human Services. Finally, the child may remain in permanent foster care with
the relative, with the State continuing to supervise and support the placement.
IDAHO"

 Children in the custody of the Department of Health and Welfare routinely are provided
foster care by relatives. State policy demands staff consider relatives as the first
alterntive for foster-care placement. This requirement has been a part of State policy
since   1985.   There are no situations defined by regulation that automatically preclude
consideration of relative placements for children.

The Departent                                    relative foster homes. Administrators
                     cannot specifcally identif all
 indicated there had been a slight increase in the incidence of such placements over the last
five years, largely due to increasing focus within the Departent on the importance of
preserving family ties for children in foster              care.


Approval and Monitorin1! of Relative Foster Homes

 The Departent of Health and Welfare licenses foster family homes for receiving children
 in the custody of the State. Relative foster homes must be licensed based upon the same
 licensing guidelines as non-relatives ' homes: the relatives ' home must meet basic health
 safety, and space standards; and, relatives must be capable of providing care and
protection for the child- as demonstrated through a psychosocial assessment and a review
 of references. Training is not required unless the child is a special needs child.
 Departental guidelines provide some flexibility, and waivers are allowed if positive
features of the home mitigate deficiencies.

Foster-care staff must visit all children and foster parents, regardless of the relationship,
at least every 30 days, or as a case requires. The Departent of Health and Welfare does
not provide special training concerning supervision of relative foster homes.

Financial and Other Support Services for Relative Foster Parents

Licensed relatives who provide foster care receive foster-care maintenance payments. Any
child in the custody of the State child welfare agency is eligible for medical and dental
benefits. Relatives are not excluded from any social services which the State makes
available to non-related foster parents, but all support services are based on a needs
assessment.

Permnencv Options

Permnent care by a relative is a permnency goal in the State. Children with permnent
plans callng for them to remain with relatives may be adopted by the relatives with State
support continuing only if the children are eligible for subsidized adoption. Courts may


          4 Itacs indicate
                             State sta   did   not respond to our written request to verify interview infonnation
report here.
 grant relatives guardianship of the children. Finally, the child may remain in permnent
foster care with the relative, with the Department continuing to supervise and support the
placement.




ILLINOIS

Children in the custody of the Deparent of Children and Famly Services routiely are
provided foster care by relatives. Deparment policy since 1976 and the findings in several
cour decisions   in the late   1980s require staf to conduct a thorough search for relatives
when children enter foster care, and to place children with relatives when reasonable to do
so.

The number of children placed with relatives has increased greatly over the last five years.
Administrators cited several factors influencing this increase: legislative and judicial
mandates that have reiterated the preference for such placements , a shortge of foster
homes has caused staff to do a more thorough job in locating relatives, and children placed
with relatives in the State generally remain in foster care longer than children placed with
non-relatives, and the numbers show the cumulative effect of this phenomenon.

Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster- homes are approved based upon the same criteria used for licensing non-
relatives ' homes, although some standards may be waived in the approval process. The
relatives ' homes must meet basic health , safety, and space standards; and , relatives must be
capable of providing care and protection for the child as demonstrated though a
psychosocial assessment, references, and criminal and protective service records checks.
Relatives are encouraged to parcipate in foster- parent orientation, but are not required to
attend.

All children in foster care must be visited every 30 days. The Deparent does not
provide training that specifically addresses supervision of relative foster-care homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is certfied or approved. Any child in the custody of the State child welfare agency
is eligible for Medicaid coverage. Relatives are not excluded from any social services
which the State makes available to non-related foster parents.
Permanency Options

Permanent care by a relative is a permanency goal in the State. Children with permanent
plans calling for them to remain with relatives may be adopted by relatives with State
support continuing only if the children are eligible for subsidized adoption. Courts may
grant relatives guardianship of the children; the guardianship may be financially supported
by the Deparment of Children and Famly Services. Finally, the child may remai in
permanent foster care with the relative , with the State and the courts contiuing to
supervise and support the placement.




INIANA
When children in the custody of the Family and Social Service Administration require out-
of-home placement , staff routinely make efforts to place them with relatives. State policy
                                        first alternative for foster-care placement. This
requires staf to consider relatives as the
requirement has been a par of State policy since 1986, and was evident in some counties
policies and practices prior to that time.   There are no situations defined by regulation that
automaticaly preclude consideration of relative placements for children.

The incidence of relative foster home placements has increased greatly over the last five
fiscal years. Administrators cited two factors as the most significant contrbutors to this
increase: 1) prior to 1984 , foster-care policy was made in the counties, and many
counties ' policies actively discouraged measures which included children living with
relatives as par of the foster-care system; and , 2) State training in 1986 actively
encouraged staff to seek relatives to care for children in the custody of the State.

Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
A few relative foster homes are licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space stadards; and , the
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment , references , and a signed criminal history statement. To
be licensed, relatives also must paricipate in foster-parent orientation and ongoing training.

Most relative foster homes are not licensed. These homes are approved at the County
level rather than licensed by the State. The standards are similar to those for licensing, but
regulations do not specify specific minimums, and training is not required.

The decision to seek licensed status usually is made by the relatives. Administrators
indicated relatives usually are licensed only if they wish to provide foster care to non-
related children as well as their own family members.
Foster-care staff must visit all foster homes (with relatives and non-relatives) every 60
days. The Deparent does not provide ongoing training specifically focused on
supervising relative foster-care placements.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed or approved and if the famly seeks such support. Children in the
custody of the State child welfare agency and who were eligible for AFDC prior to
enterig foster care are eligible for medical and denta benefits. Relatives are not excluded
from any social services which the State " makes available to non-related foster parents.

Permanency Options

Ideally, children with permanent plans callng for them to remain with relatives are
adopted by relatives , with State support continuing only if the children are eligible for
county or Title IV- E adoption subsidies. The courts may grant guardianship to the
relatives, or may order joint guardianship to the relatives and the county. Only in the
latter situation can the Deparment continue assistance to the relatives and children.
Children may be considered in permanent foster care with the State agency continuing to
support and monitor placements.





IOWA

Children in the custody of the Deparment of Human Services routinely are provided foster
care by relatives. State policy demands staff consider relatives as the fIrst alternative for
foster-care placement. This requirement has been a par of State policy since 1986. There
are no situations defined by regulation that automatically preclude consideration of relative
placements for children.

The Deparment cannot specifically identify relative foster homes , but administrators
indicated the number of such placements has remained relatively stable over the last five
years.

Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space stadards; and , the
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment , references , and criminal and protective service records
checks. In order to be licensed, relatives must paricipate in foster-parent training.
Deparment policy does allow provisional licensing for up to ninety days until the relative
completes the licensing application process.

Children also may be placed with relatives who are not licensed foster parents. Whle the
agency has no formal review process required by law or rule prior to placing children in
such situations , the staff usually conduct a home study.

The decision to seek licensed status is made by the relatives, usually based upon famlies
financial needs. Administrators could not provide information concerning the proportion of
licensed relative foster homes to unlicensed relative homes where children are placed.

Foster-care staf must visit all children and foster parents based upon the needs of
individual children , but at least every 30 days. The Deparent of Human Services does
not provide special trainig   concernng supervision of relative foster homes.


Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed and the relative requests assistance. Any child in the custody of the State
child welfare agency is eligible for medical and denta benefits. Relatives are not excluded
from any social services which the State makes available to non-related foster parents.


Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Alternatively, relatives may seek guardianship for children and end State
supervision and assistance. Only if no other permanent option is available, children may
be classified as being in long- term foster care with the State agency continuing to support
and monitor placements.

KANSAS

Children in the custody of the Deparent of Social Services routinely are provided foster
                                is to look to relatives as a placement resource. There are
care by relatives. State practice
no situations defined by regulation that automatically preclude consideration of relative
placements for children , but court orders may direct the agency to place , or not place
children with relatives. State statute requires legal notice to grandparents or other
significant relatives whenever transfer of custody occurs.

The number of relative placements has risen slightly over the last five years, but
administrators were uncertn of the cause for the increase.

Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes are approved as meeting the standards promulgated by the
Deparment of Health and Environment. The relatives ' homes must meet basic health,
safety, and space standards; and , relatives must be capable of providing care and protection
for the child as demonstrated though a psychosocial assessment, references, and criminal
and protective service records checks. To be approved, the relatives also must paricipate
in foster- parent orientation. Certn non-essential qualifications such as age , income , and
space or beds available, may be waived in the approval process.

Foster-care staf must visit all children and foster parents every 90 to 180 days. The
Deparment of Social Services does not provide special training concernng supervision of
relative foster homes.

Financial and Other Support Services for Relative Foster Parents

Although a distinction is made in State policy between those receiving foster-care
maintenance though Federal funds and those receiving reimbursement though State funds,
all relatives who provide foster care receive foster-care maintenance payments if the foster
home is approved as meeting licensing stadards. Any child in the custody of the State
child welfare agency is eligible for a Kansas Medicaid Plan medical card which covers
medical costs. Relatives are eligible for social services which the State makes available to
non-related foster parents.

Permanency Options

Children with permanent plans callng for them to remain with relatives may be adopted
by relatives with State support if the children are " special needs " children as defined by
policy. Children may be considered in long- term foster care with relatives if that is the
long- term plan for children and if the famlies enter into a long- term contract with the
Deparment. Rarely do relatives seek guardianship for children.
KENTUCKY

Children in the custody of the Deparment of Social Services routinely are provided foster
care by relatives. State policy demands staff consider relatives in makng foster-care
placements. This requirement was included in State policy before 1980.

Relatives are not considered as possible foster-care providers for children who are placed
in the custody of the Deparent in order to find an adoptive home , or when there is
evidence of intergenerational abuse.

The Deparent could not provide a count of relative foster homes, but admnistrators
indicated there had been a slight increase in the number of such placements over the last
five years.



Approval and Monitoring of Relative Foster Homes

The State approves foster famly homes for receiving children in the custody of the State.
The Deparent may approve relative foster homes based upon the same criteria as non-
relatives ' homes: the relatives ' homes must meet basic health , safety, and space stadards;
and , relatives must be capable of providing care and protection for the child as
demonstrated though a psychosocial assessment , references, and criminal and protective
service records checks. To be approved , relatives also must parcipate in foster- parent
trainig programs. The Deparent can waive age and length of marage criteria, and
requirements for pre-service trainig.

The Deparment also may place children in relative foster homes that are not approved.
Children s social workers must review these homes and develop a description of the home
for the case record. There are no formal stadards for such reviews.

The relatives or the Deparment may decide if the relatives should seek approval as foster
parents. Administrators could not provide information concernng the proportion of
licensed relative foster homes to unlicensed relative foster homes.

Foster-care staff must visit all foster homes every 30 days. The Deparment does not offer
special training on supervising relative foster-care placement.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is approved. Any child in the custody of the State child welfare agency is eligible
for medical and dental benefits. Relatives are not excluded from any social services which
the State makes available to non-related foster parents.
Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements, or children may be placed in the permanent
custody of relatives with the State agency relinquishing all rights and responsibilities for
the children.




LOUISIANA 5

Children in the custody of the Department of Social Services routinely are provided foster
care by relatives. State policy demands staff consider relatives as the first alterntive for
foster-care placement. There are no situations defined by regulation that automatically
preclude consideration of relative placements for children. 


The Department s data system does not isolate placements with relatives, but
administrators indicated that the number of such placements has decreased slightly over
the last five years. Relative foster-care placements increased some years ago after
intensive Statewide training concerning kinship and foster care,               but once such training
ended, the number of new relative placements dropped signifcantly.

Approval and Monitorinl! of Relative Foster Homes

The Department approves foster family homes for receiving children in the custody of the
                    homes are approved based upon the same criteria as non-relatives
State. Relative foster
homes: the relatives ' homes must meet basic health, safety, and space standards; and,
relatives must be capable of providing care and protection for the child as demonstrated
through a psychosocial assessment, references, and criminal and protective service records
checks. To be approved, the relatives also must participate in foster-parent orientation
and ongoing training.

Children also may be placed in unapproved "relative placements. " These homes are
studied by the children s social workers to ensure they meet the basic health and safety
needs of the children.

Relatives usually seek approval if they wish to care for other non-related children.
Therefore, few are approved.




         5 Itacs indicate State staf did not
                                               respond to our written request to verify interview infonnation
reported here.
Foster-care staff must visit all foster home every   30 days.   The Department does not
provide training concerning supervision of relative foster homes.

Financial and Other Support Services   for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is approved. Any child in the custody of the State child welfare agency is eligible
for medical and dental benefits. Relatives are not excluded from any social services which
 the State makes available to non-related foster parents.

PermnencY Options

Children with permnent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. This option is rarely used by relatives, however. Children may be considered in
long- term foster care, with the State agency continuing to support and monitor placements,
or children may be placed in the permnent custody of relatives with the State agency
relinquishing all rights and responsibilities for the child. This latter option frequently is
the goal for children who come into care while already in the home of the relative.




MAINE

The Deparment of Human Services occasionally places children in its custody with
relatives, but with caution. State policy does not give automatic preference to relatives.
Children are placed with relatives only when assessment of the relatives and their
relationships with the children s parents indicate they are capable of protectig and
meeting the needs of the children and they wil paricipate cooperatively in plans reunify
children with their parents or to have a permanent famly. There are no situations defined
by regulation , however, that automatically preclude consideration of relative foster-care
placements for children.

The number of relative foster-care placements has remained relatively stable over the last
five years.



Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Most relative foster homes are approved based upon the same criteria used for licensing
non-relatives ' homes: the relatives ' homes must meet basic health , safety, and space
standards; and , relatives must be capable of providing care and protection for the child as
demonstrated though a psychosocial assessment , references, and criminal and protective
service records checks. To be approved, the relatives also must parcipate in foster­
parent, pre-service training. The training requirement may be waived, as may other
standards, if the home contains compensatory features or strengths.

Children also may be placed with relatives who do not meet licensing standards. Foster-
care staf complete basic studies of the relatives '
                                               homes. Most relative foster homes are
approved as meeting licensing stadards. The Deparent only places children in the
homes of relatives who canot meet licensing standards, if the home is evaluated as the
best placement for the child.

Foster-care staff must visit all children in the Deparent' s care or custody at least every
180 days.

Financial and Other Support Services for Relative Foster Parents

All relatives who provide foster care receive foster-care maintenance payments on the
same basis as non-related foster parents. Any child in the custody of the State child
welfare agency is eligible for medical and dental benefits. Relatives are not excluded from
any social services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans for adoption may be adopted by relatives who meet
minimal stadards for approval for adoption. State support continues only if the child is
eligible for subsidized adoption. Children may be considered in long- term foster care with
the State agency continuing to support and monitor placements, or children may be placed
in the custody of relatives with the State agency relinquishing all rights and responsibilties
for the child.





MARYLAND

Children in the custody of the Deparent of Human Resources routinely are provided care
by relatives. State policy   demands staf consider relatives as the fIrst alternative   for
placement. A program specifically designed to provide services to children placed with
relatives was established in 1983. There are no situations defined by regulation that
automatically preclude consideration of relative placements for children.

The data concerning children placed with relatives are divided between two different
programs: the Extended Famly Services Program and the Foster Care Program. Both
programs show increases in the number of children placed with relatives over the last five
years. The Extended Famly Services program has shown quite large increases during this
period. Administrators attrbute this increase to increased attention in the Deparment to
kiship placements , and to rapidly rising need to place children.
Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space stadards; and
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment, references, and crinal and protective service records
checks. To be approved, the relatives also must parcipate in foster- parent orientation and
ongoing training.

Children also may be placed in Extended Famly Placements which are not licensed as
foster homes. Social services staff complete a health and santation inventory on these
homes, check criminal background and protective services records, and assess family
functioning and the relatives ' abilty to provide a safe nurring environment for the child.

The decision to seek licensed status is made by the relatives. Approximately ten percent
of all relative foster homes are licensed.

Foster-care staf must visit children in licensed foster homes every 30 days and children in
Extended Famly Placement every 60 days. The Deparment does provide training on the
requirements surrounding Extended Famly Placements.

Financial and Other Support Services for Relative Foster Parents

Relatives receive foster-care maitenance payments if the foster home is licensed as a
foster home. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relatives providing licensed foster care are eligible for all
services available to other licensed foster parents. Famlies served by the Extended Famly
Services Program receive the same services required by law and regulation for foster care.
The exception is day care for which extended famly placement parcipants are a priority,
but they must meet a needs test.

Permanency Options

Children with permanent plans calling for them to remain with relatives include custody
and guardianship to the relative , adoption and long- term foster care. When relatives
assume guardianship, the State s legal responsibility for the child is rescinded , but services
may be provided on a voluntar basis. If the relative adopts the child , the Deparent
may provide an adoption subsidy if the child was in licensed foster care and met eligibility
requirements. Children in long- term foster care continue to receive the services and
protections of regular foster care.
MASSACHUSETTS

Children in the custody of the Departent of Social Services routinely are provided foster
care by relatives. State policy has       mae special note of such foster homes since the early
1980s. There are no situations defined by regulation that automatically preclude
consideration of relative placements for children.

The number of such placements has risen somewhat in the last five years. Administrators
indicated that increased Departental emphasis on the importance of maintaining family
ties has resulted in the increased use of relatives.

AIJIJroval and Monitorin of Relative Foster Homes

The State approves foster family homes for receiving children   in the custody of the State.
Relative foster homes are approved based upon the same criteria as non-relatives ' homes:
the relatives ' homes must meet basic health , safety, and space standards; and, relatives
must be capable of providing care and protection for the child as demonstrated through a
psychosocial assessment, references, and criminal and protective service records checks.
To secure general approval, the relatives must participate in foster-parent orientation and
ongoing training.    When relative foster homes are approved only for specifc children, the
Departent      waives training as well some requirements that are not essential to the health
and safety of the children placed.

Foster-care staff must visit all foster homes every 30 days. Home finding staff also
annually re-evaluate all but specifc foster homes. The Department does not provide
special training concerning supervision of relative foster homes.

Financial and Other SUIJIJort Services for Relative Foster Parents

Relatives who provide foster care can receive foster-care maintenance payments or a
combination of AFDC grants brought to the same level as foster-care maintenance through
State funding. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relatives are not excluded from any social services which the
State makes available to non-related foster parents, but a respite exchange available
through the State organization for foster parents is not available to specifc placements.

Permnency OIJtions

Children with permnent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized



       6 Itaics indicate State staf did not
                                              respond to our written request to verify intervew infonnation
report here.
adoption. The  relatives may secure legal guardianship for the child and, based upon the
court order, the Departent of Social Services may continue some support for the family.




MICIDGAN

Chidren in the custody of the Deparent of Social Services routinely are provided foster
care by relatives. State policy   demands staf consider relatives as the fIrst alternative for
foster-care placement. Ths requiement has been a par of State policy since the early
1980s and was reaffirmed in 1986. There are no situations defined by regulation that
automatically preclude consideration of relative placements for children.

The number of relative foster-care placements has remained relatively stable over the last
five years.



Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon similar criteria to those used to license
non-relatives ' homes: the relatives ' homes must meet basic health and safety standards;
and , relatives must be capable of providing care and protection for the child as
demonstrated though a psychosocial assessment , references, and criminal and protective
service records checks. To be licensed , the relatives also must parcipate in foster-parent
orientation and ongoing training.

Chidren also may be placed in unlcensed relative foster homes. These homes are
assessed by children s social workers to ensure that the relatives can provide adequate care
and protection for the child.

The decision to seek licensed status is made by the relative. If the relative or home does
not meet licensing stadards, staff wil arange for assessment.      Administrators   estimate
that between 1/3 to 1/2 of relative foster homes are licensed.

Foster-care staff must visit all children and foster parents every 30 days. The supervisory
requirement is identical for both the licensed relative and non- licensed relative settig.
The Deparment of Social Services does not provide special training concernng
supervision of relative foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. Children in licensed relative foster-care homes are eligible for medical
and dental benefits. If the court maintans jurisdiction and the relatives are not licensed
the child is eligible for AFC benefits and related medical insurance. The relative must
apply for these benefits on behalf of the child, however. Eligibilty for supportve services
for both the child and the provider may var between the two types of relative placement
settings. Licensing is required in order for the relatives to use day care and respite care
resources.

Permanency Options

Children with permanent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements as long as the courts maintan jurisdiction.
Children may be placed in the permanent custody of relatives with the State agency
reliquishing all rights and responsibilties for the child (i.e., guardianship status).




MINNESOTA

Children in the custody of the Deparment of Human Services routinely are provided foster
care by relatives. State policy demands staff consider relatives as the fIrst alternative for
foster-care placement. Ths requirement has been a par of State policy since 1983, and
has gained increased attention though Heritage Preservation legislation in the State. There
are no situations defmed by regulation that automatically preclude consideration of relative
placements for children.

The incidence of relative foster home placements has increased greatly over the last five
fiscal years. Administrators explained the Deparment has reached a point at which
relatives are the common fIrst consideration for placing children.

Approval and Monitoring of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space stadards; and , the
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment , references , and criminal and protective service records
checks.
Children also may be placed in unlicensed relative foster homes. These homes are
approved for specific children. Standards var by county, and range from requirements
and processes similar to licensing to the standards used for determning safety in protective
service situations.
 Administrators could not provide information concerning the proporton of licensed relative
 foster homes to specific foster homes , nor are the criteria clear for determning if homes
 should be licensed.

 Foster-care staff must visit all children and foster parents every 15 days for the first thee
 months after children enter the homes. Thereafter, visits are required every 30 days. The
 Deparent of Human Services does not provide special training concernng supervision of
 relative foster homes.

 Financial and Other Support Services for Relative Foster Parents

Whether or not a relative receives foster-care reimbursement largely depends upon whether
the relative needs or wants such assistace and upon county policies. Any child in the
custody of the Deparent for thrt days is eligible for medcal and dental benefits.
counties individually control eligibilty for social services and some may limit relatives
access to some services.

Permanency Options

Children with permanent plans callng for them to remai with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements, but without court supervision. Children
may be placed in the permanent custody of relatives with the State agency relinquishing all
rights and responsibilities for the child.




MISSISSIPPI

Children in the custody of the Deparment of Human Services routinely are provided foster
care by relatives. State policy   demands staf consider relatives as the first alternative for
foster-care placement. Ths requirement has been a par of State policy since 1982. There
are no situations defined by regulation that automatically preclude consideration of relative
placements for children.

Although no statistics are available , administrators believe the number of relative foster-
care placements has risen slightly over the last five years largely because a shortage of
foster homes has forced workers to search harder for relatives to care for children.

Approval and Monitorin of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space stadards; and
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment , references, and crinal and protective service records
checks. Home finding staf may request an exception to criteria not related to the health
and safety of the child.

Children also may be placed in unlicensed relative foster homes. These homes are
reviewed more informally; relatives do not necessarly have to submit to background or
reference checks, nor must they attend training.

Staf are required to inform relatives of the option of having their homes licensed, but the
decision to seek licensed status usually is made by the relatives. Administrators could not
provide inormation concernng the proporton of licensed relative foster homes to
unlicensed relative foster homes.

Staf must visit all children in the Deparment's custody at least every 30 days. The
Deparment does not provide special training concernng supervision of relative foster-care
homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Non- licensed relatives are excluded from many social
services which the State makes available to licensed foster parents.

Permanency Options

Children with permanent plans callng for them to remain with relatives and who are freed
for adoption may be adopted by the relative. State support continues only if the child is
eligible for subsidized adoption. Children may enter formalized foster care with the State
agency continuing to support and monitor placements on a reduced basis.
 MISSOURI

 Children in the custody of the Deparent of Social Services routinely are provided foster
 care by relatives. State policy demands staff consider relatives as the first alternative for
 foster-care placement. Ths requirement has been a par of State policy since 1980. There
 are no situations defined by regulation that automatically preclude consideration of relative
 placements for children.

 The number of relative foster-care placements has remaied relatively stable over the last
 five years.



 Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be certified based upon a similar process to that employed for
non-relatives ' homes: the relatives ' homes must meet basic health , safety, and space
standards; and , relatives must be capable of providing care and protection for the child as
demonstrated though a social assessment , references, and criminal and protective service
records checks. Pre-service traing is waived , and smoke detectors and fire extinguishers
are not required.



The decision to seek licensed status usually is made by the relatives. Relatives rarely seek
licensed status.

Foster-care staff must visit all children and foster parents every 30 days. The Deparent
of Social Services does not provide special training concernng supervision of relative
foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the children
were eligible for AFDC prior to entering foster care. Approximately 60% of the children
in the care of relatives are covered by foster-care maintenance payments. Any child in the
custody of the State child welfare agency is eligible for medical and denta benefits.
Relatives are not excluded from any social services which the State makes available to
non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives , with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements. Relatives may seek guardianship for
children though the courts. Once custody transfers to the relative foster-care services and
benefits are withdrawn unless there is an identified need for after-care services.
MONTANA




 The Departmnt of Family Services                   occasionally places children in       its care in relative
foster homes. Such        placements have been allowed in policy since                  1986.   Earlier, the State
had a policy against such placements. There are no situations defined by regulation that
automatically preclude consideration of relative placements for children, but routine
procedures stress the need for caution in sexual abuse situations and situations in which
the child has been removed from very violent situations.

State data do not separately identif children in relative foster homes. Administrators
indicated there had been a slight increase in the number of relative placements largely as
a result of improvements in the Department                       s Indian Child Welfare Act implementation.


AIJIJroval and MonitorinJ! of Relative Foster Homes

The State licenses all foster family homes for receiving children in the custody of the State.
Relative foster homes are licensed based upon the same criteria as non-relatives ' homes:
the relatives ' homes must meet basic health, safety, and space standards; and, relatives
must be capable of providing care and protection for the child as demonstrated through a
psychosocial assessment, references, and criminal and protective service records checks.
To be approved, the relatives also must participate in foster-parent orientation and
ongoing training.

Foster-care staff must visit all children and foster parents every 30 days. The Department
of Family Services does not provide special training concerning supervision of relative
foster homes.



Financial and Other SUIJIJort Services for Relative Foster Parents

All relatives who provide foster care receive foster-care maintenance payments. Any child
in the custody of the State child welfare agency is eligible for medical and dental benefits.
Relatives are not excluded from any social services which the State makes available to
non-related foster parents.



Permanency OIJtions

Children with permnent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permnent foster care with the State agency
continuing to support and monitor placements.



          7 Itacs indicate State staf did not 

                                                    respond to our written request to verify interview infonnation
reported here.
NEBRASKA

Children in the custody of the Deparent of Social Services routinely are provided foster
care by relatives. State policy requires staff to consider relatives as the first alternative for
foster-care placement. Ths requirement has been a par of State policy since the early
1980s. There are no situations defined by regulation that automatically preclude
consideration of relative placements for children.

The Deparent experienced an increase in relative foster-care placements in the late
1980s, but since 1990 the number of such placements has remained relatively stable.
Administrators point to the increased emphasis on the value of maintaning famly ties , and
to the shortge of other foster homes as factors in the increased use of relative foster
homes.

Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
If relatives can meet licensing requirements, they can be licensed. Relatives who canot
meet licensing requirements must be approved in order to receive specific children. The
approval process includes a home study and a background check to ensure the general
safety of the children placed in the home. Training requirements are waived for relatives
although they are encouraged to paricipate.

Foster-care staf must visit all children and foster parents every 30 days. The Deparment
of Social Services does not provide special training concerning supervision of relative
foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the relative
accepts such payments. Any child in the custody of the State child welfare agency is
eligible for medical and dental benefits. Relatives are not excluded from any social
services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives , with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements. Relatives may seek guardianship for
children though the courts. Once custody transfers to the relative , foster-care services and
benefits are withdrawn unless the famly qualifies for State-provided subsidized
guardianship or AFDC relative payee.
NEVADA

Children in the custody of the Deparment of Human Resources routinely are provided
foster care by relatives. State policy demands staff consider relatives as the first
alternative for foster-care placement. Ths requirement was included in State policy prior
to 1980. There are no situations defined by regulation that automatically preclude
consideration of relative placements for children.

The number of relative foster-care placements has increased somewhat over the last five
years, largely because of increased worker acceptance of relatives as a viable resource in
helping famlies.



Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Most relative foster homes are licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space standards; and
relatives must be capable of providing care and protection for the child as demonstrated
through a psychosocial assessment , references , and criminal and protective service records
checks. To be licensed , the relatives also must paricipate in foster- parent orientation and
ongoing traing. If relatives refuse to parcipate in training, children may still be placed
with them, but the home is not licensed. Some homes may be licensed without home
studies because of specific orders of the court at the custody hearng.

Staf must visit non-relative foster homes every 60 days, but is not required to meet ths
schedule for relative foster-care homes. Deparment of Human Services does not provide
special training concerning supervision of relative foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care are eligible for foster-care maintenance payments if the
foster home is licensed or meets licensing criteria. Any child in the custody of the State
child welfare agency is eligible for medical and dental benefits. Relatives are not excluded
from any social services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives , with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements but at a much lower level. Relatives may
seek guardianship for children though the courts. Once custody transfers to the relative
foster-care services and benefits are withdrawn.
NEW    HAMPSHIRE

Children in the custody of the Division of Children and Youth Services routinely are
provided foster care by relatives. There are no situations defined by regulation that
automatically preclude consideration of relative placements for children.

The number of relative foster-care placements has increased over the last five years largely
as a result of increased staf awareness of the importce of kinship ties.

Approval and Monitorin~ of Relative Foster Homes

The Division licenses foster famly homes for receiving children in the custody of the
State , but, in general , relative foster homes are not licensed. Child protection social
workers and juvenile services officers study family relationships and basic safety issues
and must submit their evaluations to the cours for approval , but the agency has no formal
policy for reviewing relative foster-care homes.

Foster-care staf  must visit all children and foster parents every 30 days. The Division of
Children and Youth Services does not provide special training concernng supervision of
relative foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care do not receive general foster-care maintenance payments
unless the foster home is licensed. Any child in the custody of the State child welfare
agency is eligible for medical and denta benefits. Relatives, because they are not licensed
do not belong to the State foster-care association. Respite-care services and liability
insurance are available only to licensed foster parents; therefore , most relatives do not have
access to these services. Relatives are not excluded from any social services which the
State makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives who have been
freed for adoption may be adopted by the relative. State support continues only if the
child is eligible for subsidized adoption. Relatives may seek guardianship for children
though the courts. Once guardianship transfers to the relative, foster-care services and
benefits are withdrawn.
NEW JERSEY

State policy requires that staff conduct a comprehensive search for all known relatives to
assess the appropriateness of their providing a home for a child. This has been par of
State policy since 1981. There are no regulations that automatically preclude consideration
of relative placements for children.

At the tie of the initial interview , the Deparent' s data system could not separately
identify all children placed with relatives. (Current reporting from the State indicates the
Deparment can now provide such information. ) Administrators stated , however, the
number of such placements seemed to have risen slightly over the last five years largely as
a result of the increasing seriousness of the problems faced by the children coming into
care.

Approval and Monitorin~ of Relative Foster Homes

Children placed with relatives by the Division of Youth and Famly Services may be
considered 1) in a regular approved foster home, in which the relatives are approved as
meeting the same stadards as non-related foster-care providers , or 2) a free home, in
which the agency made an individual assessment and determned the relative s ability to
appropriately care for the child.

Caregivers may directly apply to be regular foster parents for related children only when
the Division places children in the homes of relatives , or children are placed with the
relatives as the result of litigation initiated by the Division , and the children were AFDC
recipients in the home from which they were removed.

The Division has another category of substitute care called para- foster care. Ths is an
income maintenance program for children placed by someone other than the Division.
Relative caregivers are eligible for para- foster parent consideration only when lack of
documentation of the relationship or too distant a relationship makes the relatives ineligible
for AFDC payments on behalf of the children. Para- foster stadards are not as strngent as
those for regular foster-care approval. Once approved as a para- foster parent, a relative
may apply and become a regular foster parent if all standards are met. Relative foster-care
providers are about equally distrbuted among the three programs.

Casework staff visit all children according to a schedule specified in the plan for the child.
The caseworker and supervisor establish the visitation schedule based upon the needs of
the child and caregiver.



Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments only if the
foster home is approved. Para- foster parents receive payments comparable to AFDC for a
famly size of one. Any child in the custody of the State child welfare agency is eligible
for medical and dental benefits. Relatives are not excluded from any social services which
the State makes available to non-related foster parents.

Permanency Options

For some children, some form of long- term care by relatives may be the permanent plan.
Children with permanent plans calling for them to remai with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in long- term foster care with the State agency
continuing to support and monitor placements based on the needs of the famly and child.




NEW MEXICO

Children in the custody of the Deparent of Human Services routinely are provided foster
care by relatives. State policy demands staff consider relatives as the first alternative for
foster-care placement. Ths requirement was added to State policy before 1980. There are
no situations defined by regulation that automatically preclude consideration of relative
placements for children.

The number of relative foster-care placements has remained relatively stable over the last
five years, largely because of the increased pressure to find homes for the children entering
foster care.



Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes must be licensed as well , but the child may be placed before the
licensing is completed. Relatives ' homes must meet basic health and safety standards
although the space and physical conditions requirements may be lower. The relatives must
be capable of providing care and protection for the child as demonstrated though a social
work assessment, references , and criminal and protective service records checks. To be
licensed, the relatives also must paricipate in foster-parent orientation and ongoing
training.

Relatives can sign a conditional substitute care agreement. This agreement allows relatives
to assume care of children without a license but binds the relative to complete the
licensing process withn four months.

Social workers must visit all children and foster parents every 30 days. The Human
Services Deparment does not provide special training concerning supervision of relative
foster homes as distinct from other foster homes.
 Financial and Other Support Services for Relative Foster Parents

 Most relatives who provide foster care receive foster-care maintenance payments. All are
 eligible for foster-care reimbursement, but some famlies decline such support. Any child
 in the custody of the State child welfare agency is eligible for medical and denta benefits.
Relatives are not excluded from any social services which the State makes available to
non-related foster parents.

Permanency OPtions

Children with permanent plans calling for them to remai with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Relatives may seek guardianship for children though the courts. Once custody
transfers to the relative foster-care services and benefits are withdrawn.




NEW YORK

Children in the custody of the Deparment of Social Services routinely are provided foster
care by relatives. State policy   demands staff consider relatives as the first alternative for
foster-care placement. Ths requirement has been a par of State law since 1987. There
are no situations defined by regulation that automatically preclude consideration of relative
placements for children.

The number of children placed with relatives has risen greatly over the last five years.
Administrators attrbute the rapid rise in such placements to two factors: a State Supreme
Court case brought in 1986     (Eu~ene F. v. Gross) that resulted in State action incorporating
relatives in the traditional foster-care system; and the passage of legislation demanding
that staf considered relatives when placing children in foster homes.


Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon stadards the same criteria used for non-
relatives ' homes: the relatives ' homes must meet basic health and safety standards; and
relatives must be capable of providig care and protection for the child as demonstrated
though a psychosocial assessment , references, and criminal and protective service records
checks. To be licensed , the relatives also must paricipate in foster- parent orientation and
ongoing training.

Children also may be placed in approved relative foster homes. These homes are reviewed
based upon the same criteria used for licensed homes but the Deparent         can waive space
and physical facility standards and age requirements. The decision to seek licensed status
usually is made by the relatives. Administrators stated that most relatives are approved.

Foster-care staf must visit children monthly or quarerly depending on whether children
are in placement for child problems or parental problems. The Deparment of Social
Services is developing a training currculum for working with relative foster-care providers.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maitenance payments. Any child in
the custody of the State child welfare agency is eligible for medical and dental benefits
unless the child is covered by private insurance. Relatives are not excluded from any
social services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements. The courts may grant relatives direct
custody or guardianship (a stronger legal relationship) of the children. Whle relatives who
obtan direct custody of children may be eligible for continued social services , they do not
receive foster-care maintenance payments for care of the child.




NORTH CAROLINA

Children in the custody of the Deparment of Human Resources        routiely are provided
foster care by relatives. State policy states a preference for relative foster-care placements
where appropriate. There are no situations defined by regulation that automatically
preclude consideration of relative placements for children.

The Deparment' s data system did not separately identify children placed with relatives
until 1990 , and administrators were uncertin of whether use of relative foster homes had
undergone significant change over the last five years.

Approval and Monitorin~ of Relative Foster Homes

The county agencies license foster family homes for receiving children in the custody of
the State. Relative foster homes can be licensed based upon the same criteria as non-
relatives ' homes: the relatives ' homes must meet basic health , safety, and space standards;
and, relatives must be capable of providing care and protection for the child as
demonstrated through a psychosocial assessment and reference checks. Waivers can be
granted for space , age, and martal status. Children also may be placed in unlicensed
relative foster homes; counties determne what standards should be applicable.

Relatives ' homes are licensed if the relatives want to be licensed and if the home can meet
licensing criteria. The Deparent canot license foster parents who canot meet basic
health and safety standards. Court orders concernng custody of children may stipulate
parcular licensing arangements. Less than thee percent of relatives ' homes are licensed.
Foster-care staff must visit all licensed foster homes every 90 days; there are no policy
guidelies for unlicensed homes. Staf do not receive specialized training concernng
supervision of relative foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. Any Title IV- E eligible child is eligible for medical and dental benefits.
For children who are not Title IV - E eligible , staff must make a determnation of their
eligibilty for Medicaid. Relatives are not excluded from any social services which the
Deparment makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the Deparment
continuing to support and monitor placements; judicial reviews may be discontinued at the
discretion of the courts. Relatives may seek guardianship or temporar custody for
children though the courts. Once custody transfers to the relative, foster-care services and
benefits are withdrawn.
NORTH       DAKOTA

 The Departent Human Services routinely arranges for foster care provided by relatives
for children in the custody of the  County supervisors. State policy demands staff consider
relatives as the first alternative for foster-care placement. This requirement has been a
part of State policy for most of the history of the Departent.

 The Department      s data system cannot separately identif children placed with                 relatives.
Administrators stated, however, the number of relative foster-care placements has
remained relatively stable.

AVIJroval and Monitorinl! of Relative Foster           Homes

The State licenses foster family homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space standards; and,
relatives must be capable of providing care and protection for the child as demonstrated
through a psychosocial assessment, references, and criminal and protective service records
checks. To be approved, the relatives also must participate in foster-parent orientation
and ongoing training. Children also may be placed in unlicensed relative foster homes.
These homes are reviewed at the county level, and each county determines its own methods
and standards for conducting these          reviews.

The decision to seek licensed status usually is made by the relatives. Administrators could
not provide informtion concerning the proportion of licensed relative foster homes to
unlicensed relative foster homes.

Foster-care staff must visit all children and foster parents every 30 days. The Departmnt
of Human Services does not provide special training concerning supervision of                      relative
foster homes.



Financial and Other SUIJIJort Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. Financially eligible children in the custody of the Department receive
medical and dental benefits. Relatives are not excluded from any social services which the
State makes available to non-related foster parents.




         8 Itacs indicate 

                          State staf did not respond to our written request to verify interview   infonnation
reported here.
Permanency Ovtions

Children with permnent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permnent foster care with the State agency
continuing to support and monitor placements, or their long-term custody may be
transferred to a special Casey Foundtion Family Program for intensive services and
monitoring. Relatives   may seek guardianship for children through the   courts. Once
custody transfers to the relative foster-care services and benefits are withdrawn. Because
of the complexity of the guardianship process, relatives rarely pursue this option.




OHIO

Children in the custody of the Public Children s Services Agencies (PCSAs) routinely are
provided foster care by relatives. State policy requires staf to investigate having relatives
assume care for children as an alternative to foster care and , if children do come into the
custody of the PCSAs, it requires staf to consider relatives as the first alternative for
foster-care placement. Ths requirement has been a par of State policy since 1987.

The number of children placed in relative foster homes has risen greatly in the last five
years. Administrators stated ths increase was the result of the passage of the State statute
requirng Deparental focus on these types of placements. Administrators also note there
has been a significant increase in the number of children in the custody of relatives for
whom the Department has supervisory responsibilty as a result of court orders.

Approval and Monitorin~ of Relative Foster Homes

The Deparment of Human Services certfies foster famly homes for receiving children in
the custody of the PCSAs. Relative foster homes can be certfied based upon the same
criteria as non-relatives ' homes: the relatives ' homes must meet basic health, safety, and
space stadards; and, relatives must be capable of providing care and protection for the
child as demonstrated though a psychosocial assessment , references , and criminal and
protective service records checks. To be certfied , the relatives also must parcipate in
foster- parent orientation and ongoing training.

Children also may be placed in approved relative homes. These homes must meet the
same basic standards as licensed foster homes, but waivers of non-essential criteria are
more likely.

PCSAs determne if a relative home should be certified. Administrators could not provide
inormation concernng the proportion of certified relative foster homes to approved
relative homes , but they believed the number of certified homes to be quite small.
Foster-care staff must visit all children and foster parents every four weeks. The
Deparment of Human Services does not provide special training concernng supervision of
relative homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the home is
certified. All children in the custody of the PCSAs are eligible for medical and denta
benefits. Relatives are not excluded from any social services which the State makes
available to non-related foster parents.

Permanency Options

Permanent care by a relative is a permanency goal in the State. Children with permanent
plans calling for them to remain with relatives may be adopted by relatives with State
support continuing only if the children are eligible for subsidized adoption. Courts may
grant relatives guardianship or legal custody of children. Finally, children may remain in
permanent foster care with the relative , with the State continuing to supervise and (if
licensed) support these placements.





OKLAHOMA

The Deparment of Human Services occasionally places children in its custody in relative
foster-care homes. Only children in paid relative foster homes and some Native American
children in supervised relative foster homes are included in the State s foster-care data
base. Based upon a paral    count, administrators noted that the number of relative foster-
care placements has risen greatly, parcularly in the urban areas of the State.

Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space stadards; and
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment, references , and criminal and protective service records
checks. To be licensed , the relatives also must parcipate in foster- parent orientation and
ongoing training.

Children also may be placed in unlicensed relative homes. For these homes , the county
agencies conduct their own home studies with standards similar to licensing stadards.
 The decision to seek licensed status usually is made by the relatives. Administrators could
 not provide information concerning the proportion of licensed relative foster homes to
 unlicensed relative foster homes. Foster-care payment records would indicate that about
 25 % of the homes are licensed.

 Foster-care staff must visit all paid foster homes every 30 days. Staff must visit children
 in other homes based upon famly services policies which are similar to foster-care
 policies. The Deparent does not provide specialized training on supervising relative
 foster homes, but does give policy guidance for monitoring paid or unpaid placements.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relatives are not excluded from any social services which the
State makes available to non-related foster parents.

Permanency Options

Permanent care by a relative is a permanency goal in the State. Children with permanent
plans calling for them to remain with relatives may be adopted by relatives with State
support continuing only if the children are eligible for subsidized adoption. Courts may
grant relatives guardianship of the children. Finally, children may remain in permanent
foster care with the relative, with the State continuing to supervise the home on a less
frequent basis and , if licensed , financially support the placement.




OREGOJt

 Children in the custody of the Department of Human Resources routinely are provided
foster care by relatives. State policy demands staff consider relatives as the first
                         placement. This requirement has been a part of State policy
alterntive for foster-care
since the early 1980s. There are no situations defined by regulation that automatically
preclude consideration of relative placements for children.

The number of children placed with relatives, particularly in non-paid relative placements,
has increased greatly over the last five years. Administrators stated the rise was due to
increased emphasis on relative foster homes in agency practice standards and policy.




         9 Itaics indicate State staf did not 

                                              respond to our written request to verify interview infonnation
reported here.
AVIJroval and MonitorinJ! of Relative Foster Homes

The State certifes foster family homes for receiving children in the custody of the State.
Relative foster homes can be certifed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space standards; and,
relatives must be capable of providing care and protection for the child as demonstrated
through a psychosocial assessment, references, and criminal and protective service records
checks. To be certifed, the relatives also must participate in foster-parent, pre-service
training.

Children also may be placed in uncertifed relative foster homes. Local foster-care staff
check these homes for basic   safety, and may check relatives through the Departent
back records.

The Department accepts applications for licensing only from relative foster parents who
wil care for children who are eligible for Federal Title IV- E funding (i. , prior to
entering the Department s custody, the children were not living in the home and were
eligible for AFDC).

Foster-care staff must visit all children and foster parents every 30 days. The Department
of Human Resources does not provide special training concerning supervision of relative
foster homes.



Financial and Other Suvvort Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is certifed and the children are eligible for Title IV- E foster-care funds (Lipscomb
Simmons, now before the Federal Circuit Court of Appeals challenges Oregon s exclusion
of non-IV- E eligible children placed with relatives from State foster-care funding.
Children in certifed relative homes are eligible for medical and dental benefits. Non­
certifed relatives are excluded from some social services which the State makes available
to non-related foster parents, and are not covered by Foster Care Liability Insurance.

Permnency Ovtions

Children with permnent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permnent foster care with the State agency
continuing to support certifed placements. Relatives may seek guardianship for children
through the courts. Once custody transfers to the relative, foster-care services and
benefits are withdrawn.
PENNSYL VANIA

Children in the custody of the Office of Children, Youth , and Famlies routinely are
provided foster care by relatives in most counties of the State. A State Bulletin distrbuted
in 1982 encouraged staf to search for and use relatives as foster parents for chidren when
appropriate.

The agency s data system  canot separately identify children placed in relative foster-care
homes. Admnistrators stated, however, that the number of children placed with relatives
seems to have increased somewhat over the last five years, parcularly in urban areas.
They attrbute this increase to two factors: the growing number of drug-addicted newborns
being raised by grandparents, and the increased emphasis on extended famly ties within
the Offce for Children , Youth and Famlies.


Approval and Monitorin~ of Relative Foster Homes

Counties license foster famly homes for receiving children in the custody of the counties,
including relative foster homes. The criteria for licensing relatives ' homes are the same
criteria as for non-relatives ' homes: the relatives ' homes must meet basic health , safety,
and space stadards; and , relatives must be capable of providing care and protection for
children as demonstrated through a psychosocial assessment. To be approved , the relatives
also must paricipate in foster-parent orientation and ongoing training.

Foster-care staf must visit all children and foster parents on a schedule developed as par
of the case plans. The Offce of Children , Youth , and Famlies does not provide special
traiing concernng supervision of relative foster homes.
Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments. Any child in
the custody of the county agencies is eligible for medical and dental benefits. Relatives
are not excluded from any social services which the State makes available to non-related
foster parents.

Permanency Options

Children with permanent plans callng for    them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the county agencies
continuing to support and monitor placements. The counties may implement permanent
plans for children called " Placement in the Home of a Relative. " In ths arangement , the
agencies place children in the homes of relatives , offers intensive services, and , then when
the placement is stable , transfers temporar custody to the relative and withdraws
supervision and financial assistance from the family.
RHODE ISLAND

Children in the custody of the Deparment for Children , Youth and Famlies routinely are
provided foster care by relatives. A cour decision in the early 1980s required the
Deparment look first to relatives as a source of care for children. There are no situations
defIned by regulation that automatically preclude consideration of relative placements for
children.

The number of relative foster-care placements has increased over the past five fiscal years.
Admnistrators cited the success of Deparent efforts to educate staf about the
importce of maintaning kiship ties as a major factor behind the increase.

Approval and Monitorin~ of Relative Foster Homes

The Deparment licenses foster family homes for receiving children in the custody of the
State. All relative foster homes must be certified based upon similar criteria to those
applied in licensing non-relatives ' homes: the relatives ' homes must meet basic health,
safety, and space standards; and , relatives must be capable of providing care and protection
for children as demonstrated though psychosocial assessments , references, and criminal
and protective service records checks. Unlike non-related foster parents, relatives are not
required to parcipate in foster-parent orientation and ongoing training. Relative foster
homes are recertfied biennially.

Relatives usually seek full licensed status only if they wish to care for other, non-related
children.

Direct services staf must visit all children and foster parents based upon individual case
plans. The Deparment of Children , Youth, and Famlies does not provide special training
concernng supervision of relative foster homes.

Financial and Other Support Services for Relative Foster Parents

All relatives who provide foster care and want reimbursement receive foster-care
maintenance payments. Any child in the custody of the State child welfare agency is
eligible for medical and denta benefits. Relatives are not excluded from any social
services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives and for whom
parental rights have been termnated may be adopted by the relative. State support
continues only if the child is eligible for subsidized adoption. Children may be considered
in permanent foster care with the State agency continuing to support and monitor
placements.




SOUTH CAROLINA

Children in the custody of the Deparent of Social Services routinely are provided foster
care by relatives. Since the 1970s, State policy has allowed staff to consider relatives
when aranging foster-care placements. There are no situations defmed by regulation that
automatically preclude consideration of relative placements for children but protective
services caseworkers and foster-care caseworkers must confer on whether relatives should
be explored.

The Deparment' s    data system does not separately identify children placed in relative foster
homes. Administrators indicated, however, that the number of children placed with
relatives has risen slightly, parally    due to shortges of   traditional, non-related foster
homes.

Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space stadards; and
relatives must be capable of providing care and protection for children as demonstrated
though psychosocial assessments, references, and criminal and protective service records
checks. To be licensed, the relatives also must paricipate in foster-parent orientation and
ongoing training.

Relatives also may care for children by obtaining an " certficate of approval, " which allows
them to care only for specific related children. The approval process for obtaning the
                                    evaluation except that these relatives are not required
certficate is similar to the licensing
to obtain a medical reference nor must they parcipate in Deparmental training.

The decision to seek licensed status usually is made by the relatives. Fewer than five
percent of relatives seek a certificate of approval rather than a license.

Foster-care staff must visit all children in out of home care every 30 days. The
Deparment of Social Services does not provide special training concernng supervision of
relative foster homes.
Financial and Other Supoort Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. With few exceptions, children in out of home care are eligible for
medical and dental benefits though Medicaid. Relatives are not excluded from any social
services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the Deparent
continuing to support and monitor placements. Relatives may seek legal custody for
children though the courts. Once custody transfers to the relative foster-care services and
benefits are withdrawn.




SOUTH DAKOTA

Children in the custody of the Deparent of Social Services routinely are provided foster
care by relatives. As a result of the Indian Child Welfare Act passed in 1978, the
Deparment has emphasized the importce of maintaig kinship ties when placing
Native American children in foster care. There are no situations defined by regulation that
automatically preclude consideration of relative placements for children , but indications of
any abuse should cause staff to proceed cautiously in placing children.

Until 1990, the Deparment' s data system could not separately identify children placed
with relatives. Administrators indicated, however, that the number of children placed with
relatives had grown, paricularly in reservation areas , over the last five years. They
attrbuted the increase to the greater awareness of Indian Child Welfare Act requirements
and to recognition among staff of the importance of famly connections.

Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space stadards; and
relatives must be capable of providing care and protection for the child as demonstrated
though a psychosocial assessment, references, and criminal and protective service records
checks; and the relatives must paricipate in foster-parent orientation and ongoing training.

Children also may be placed in unlicensed relative foster homes. The Deparment must
evaluate these homes for health and safety problems, insure there are no reports concerning
the relatives in the State       s Protective Services Central Registr,           and secure    court approval
for the placement.

In general, only relatives who want to care for non-related children apply for licensing.
Therefore, administrators indicated, there are few licensed relative foster homes.

Foster-care staf must visit all children and foster parents every 30 days. The Deparent
of Social Services does not provide special training concernng supervision of relative
foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relatives are not excluded from any social services which the
State makes available to non-related foster parents.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives , with State support continuing if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support, if the relative is licensed , and monitor placements. Relatives may
seek guardianship for children though the courts. Once custody transfers to relatives, they
may receive a subsidy from the State to assist in the care of the children.




TENNESSEElO

Children in the custody of the Department of Human Services routinely are provided foster
 care by relatives. State policy demands staff consider relatives as the first alterntive for
foster-care placement. There are no situations defined by regulation that automatically
preclude consideration of relative placements for children.

The Department s data system cannot separately identif children placed in relative foster-
care homes. Administrators indicated the number of such placements had increased over
the past five years, largely because of policy and training emphasis on placing children in
the "least restrictive environment " was beginning to take hold.




         10
              Itaics indicate State staf did not   respond to our written request to verify interview infonnation
reported here.
Avvroval and MonitorinJ! of Relative Foster Homes

The State approves foster family homes for receiving children in the custody of the State.
Relative foster homes can be approved based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space standrds; and,
relatives must be capable of providing care and protection for the child as demonstrated
through a psychosocial assessment, references, and criminal and protective service records
checks. To be approved, the relatives also must participate in foster-parent orientation.
Children also may be placed in unapproved relative foster homes. These homes undergo
risk assessment, and the relatives ' backgrounds are checked against police computers.

The decision to seek licensed status usually is made by the relatives. Administrators could
not provide informtion concerning the proportion of approved relative foster homes to
unapproved relative foster homes.

Foster-care staff must visit all approved foster homes every 30 days. Staff must visit
children in unapproved homes on a regular schedule determined by the casework plan       for
the case.



Financial and Other Suvvort Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is approved. In    1989,  legislation to facilitate relative placements encouraged the
Departent to provide financial assistance to relatives if there are economic barriers to
placing children with family members. Any child in the custody of the Departent is
eligible for Federal or State medical and dental benefits. Relatives are not excluded from
any social services which the State makes available to non-related foster parents.

Permnency Ovtions

Children with permnent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permnent foster care with relatives if no other
option is possible. The Department continues to monitor permnent foster-care placements
on a quarterly basis and to provide assistance if it was previously available.
TEXAS

The Deparment of Human Services occasionally places children for whom it has
conservatorship with relatives. There are no   situations defined by regulation that
automatically preclude consideration of relative placements for children.

The number of children placed with relatives has remained relatively stable over the last
five years.



Approval and Monitorin~ of Relative Foster Homes

There are two means of studying relative foster homes for placement of children:
certfication as a foster home, or a relative home study. The Deparment certfies        foster
famly homes for receiving children in the custody of the State. Relative foster homes can
be certified based upon the same criteria as non-relatives ' homes: the relatives ' homes
must meet basic health, safety, and space standards; and , relatives must be capable of
providing care and protection for the children as demonstrated though psychosocial
assessments, references, and criminal and protective service records checks. To be
certfied , the relatives also must paricipate in foster-parent training. The Deparent may
allow varances for some stadards, but ths rarely happens. Few relative placements are
certfied.

Children usually are placed in uncertfied relative foster homes. These homes are reviewed
by field staf through a home study and reference checks.

Deparent staf determne whether relatives should apply for certfication based upon the
financial needs of the famly. Administrators could identify only 12 certfied relative
foster homes.

Foster-care staff must visit all children in conservatorship every 30 days. The Deparment
of Human Services does not provide special training concerning supervision of relative
foster homes on a statewide basis.

Financial and Other Support Services for Relative Foster Parents

Relatives who are certfied foster parents receive foster-care maintenance payments.
Children in the custody of the State child welfare agency who receive care in licensed or
certified foster homes are usually eligible for other foster-care assistace benefits including
Medicaid and Early Periodic Screening Detection and Treatment (EPSDT). The abilty to
provide supportve services is determned on a local level.

Permanency Options

Children with permanency plans callng     for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Relatives may seek to assume managing conservatorship for children though
the cours. Once custody transfers to the relative, foster-care services and benefits are
withdrawn. In exceptional situations, children may be considered in permanent foster care
with the relative. The Deparent and the courts continue to support and monitor
placements.




UTAH

Children in the custody of the Deparent of Human Services or for whom the Deparent
exercises guardianship routinely are provided foster care by relatives.

The Deparent' s data system cannot separately identify all children placed in relative
foster-care homes. Administrators were unable to estimate what the trend in use of relative
homes had been over the last five years.

Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes must be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space stadards; and,
relatives must be capable of providing care and protection for the children as demonstrated
though a psychosocial assessments, references, and criminal and protective service records
checks. The relatives may paricipate in foster- parent training. Space standards and
training can be waived.

Foster-care staff must visit all children and foster parents every 30 days. The Deparent
of Human Services does not provide special training concerng supervision of relative
foster homes.

Financial and Other Support Services for Relative Foster Parents

Almost all relatives who provide foster care receive foster-care maintenance. A few
relatives decline foster-care payments. Any child in the custody of the State child welfare
agency is eligible for medical and dental benefits. Relatives are not excluded from any
social services which the State makes available to non-related foster parents.

Permanency Options

Children with permanent plans callng for   them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in long- term foster care with the State agency
continuing to support and monitor placements. Relatives may seek guardianship for
chidren though the courts. Once custody transfers to the relative foster-care services and
benefits may be withdrawn. Adolescents who are 16 years old or older someties have
a permanent plan independent living. In some cases , the adolescents may receive
Independent Living transition assistace while boarding in the homes of relatives.




VERMONT

Children in the custody of the Deparment of Social and Rehabiltation Services routinely
are provided foster care by relatives. The Deparent encourages staff to investigate
placements that maintan famly ties. There are no situations defined by regulation that
automatically preclude consideration of relative placements for children.

The number of foster-care placements with relatives has remained relatively stable over the
past five years.



Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space stadards ; and,
relatives must be capable of providing care and protection for the children as demonstrated
though psychosocial assessments, references, and crinal and protective service records
checks. To be licensed, the relatives also must parcipate in foster-parent training.

Children also may be placed in unlicensed relative foster homes. Foster-care staf conduct
a home study to ensure the premises are free of danger, evaluate the relatives ' ability to
care for the children ,   and secure agreements from the relatives that they wil   cooperate
with the Deparent in carng for the children.

The decision to seek licensed status usually is made by the relatives. Administrators could
not provide the number of licensed relative foster homes, but indicated that more than half
of relative foster-care parents were licensed.

Foster-care staff must visit all children and foster parents on a schedule specified   in the
case plan. The Deparment of Human Services does not provide special training
concerning supervision of relative foster homes.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
homes are licensed; approved relatives can receive provisional foster-care maintenance
payments. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relatives are not excluded from any social services which the
State makes available to non-related foster parents, but unlcensed relatives canot belong
to the State Foster Care Association. Thus, they lose the benefit of that organization
programs.

Permanency Options

Children with permanent plans calling for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the Deparent
contiuing to support and monitor placements. Relatives may seek guardianship for
children though the courts. If relatives are named guardians for children and custody
transfers to the relatives , foster-care services and benefits are withdrawn. The Deparent,
however, does sometimes retan legal custody even if relatives are named as guardians for
children. In this case   , Deparental support can continue.




VIRGIN
Children in the custody of the Deparment of Social Services routinely are provided foster
care by relatives. State policy since 1980 has identified placement with relatives as a
placement goal. There are no situations defined by regulation that automatically preclude
consideration of relative placements for children.

The number of children placed with relatives has remained relatively stable over the last
five years.



Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
All relative foster homes must be licensed , except for short- term placements durig which
relatives need only secure 30- day approvals. Relatives ' homes are licensed based upon the
same criteria as non-relatives ' homes: the relatives ' homes must meet basic health , safety,
and space standards; and, relatives must be capable of providig care and protection for the
children as demonstrated though psychosocial assessments, references, and crinal and
protective service records checks. Relatives may parcipate in foster- parent training when
it is offered by the agency.

Foster-care staff must visit all children and foster parents every 90 days. The Deparment
of Social Services does not provide special training concerning supervision of relative
foster homes.
Financial and Other SUPpOrt   Services for Relative Foster   Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is fully licensed and the relative wants such assistace. Any child in the custody of
the State child welfare agency is eligible for medical and dental benefits. Relatives are not
excluded from any social services which the Deparment makes available to non-related
foster parents.



Permanency Options

Children with permanent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. The courts may order that children be placed in the permanent care of relatives
which may end Deparmenta support and monitoring of placements. Finally, the courts
might order that the children be placed in permanent foster care with the relative. Under
such an order, the Deparent reduces monitoring of the placement but support continues.




WASIDNGTON

Children in the custody of the Division of Children and Famly Services routinely are
provided foster care by relatives. Placing children with relatives has always been a priority
in agency policies. There are no   situations defined by regulation that automatically
preclude consideration of relative placements for children, but staff are cautioned
parcularly in abuse situations to assess the possibilty that the pattern of abuse is
intergenerational.

The number of children placed with relatives cannot be readily determned from the
existing State data system , but a system the agency has recently implemented wil identify
such placements. Administrators stated that the number of placements with relatives has
remained relatively stable.

Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Some relative foster homes are licensed , based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space stadards; and
relatives must be capable of providing care and protection for the children as demonstrated
though psychosocial assessments , references, and criminal and protective service records
checks. The Division of Children and Famly Services offers licensing only to those
individuals who care for IV -E eligible children.
Most relative foster homes are not licensed. Staff complete a detaled home study and
background checks for unlicensed relative foster homes.

Foster-care staff must visit all children every 30 days. Exceptions   can be made to ths
schedule with supervisory approval after dependency is established. The Deparent         of
Social Services does not provide special training concernng supervision of relative foster
homes.

Financial and Other Support Services for Relative Foster Parents

Licensed relatives who provide foster care to Title IV -E eligible children receive foster-
care maintenance payments. All children in the care of the Division are eligible for
medical and dental benefits. Those relatives who are not licensed are not eligible for
respite-care or clothg vouchers on behalf of children.


Permanency Options

Children with permanent plans calling for them to remain with relatives and for whom
parenta rights have been termnated may be adopted by the relative. State support
continues only if the child is eligible for subsidized adoption. The cours may order
children placed in long- term foster care with the relative. The agency continues to support
and monitor long- term foster care placements. The cours may grant guardianship to the
relatives; ths action ends   agency involvement with the famly.




WEST VIRGINIA

The Office of Social Services occasionally places children in its custody in relative foster-
care homes. Since 1980, one of the terms of a foster-care consent decree has requied the
agency to use relatives, if available , for emergency placements for children. There are no
situations defined by regulation that automatically preclude consideration of relative
placements for children. 

The Office of Social Services data base does not separately identify children in relative
foster-care placements. Admistrators stated , however , that the number of children placed
with relatives had risen somewhat over the last five years, largely as a result of the
decrease in the pool of available non-related foster homes.

Approval and Monitorin~ of Relative Foster Homes

The State licenses foster famly homes for receiving children in the custody of the State.
Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health , safety, and space stadards; and
relatives must be capable of providing care and protection for the children as demonstrted
though psychosocial and medical assessments. To be approved , the relatives also must
parcipate in foster- parent orientation and agree to abide by Deparent policies and
decisions.

The agency also may place children in unlicensed relative foster homes. There are no
formal procedures for review of these homes.

The decision to seek licensed status usually is made by the relative based upon their need
for fmancial reimbursement and their wilingness to submit to State policies. Less than
half of all relative foster homes are licensed.

Foster-care staf must visit all non-relative foster homes every 30 days. Staf must visit
children in relative foster homes more frequently than non-relative homes for the fIrst 90
days. Mter the placement has stabilzed , foster-care staff visit the home less frequently
than the 30- day   requirement.

Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care . receive foster-care maintenance payments if the foster
home is licensed and if, prior to coming into the custody of the Offce of Social Services,
the child was eligible for Aid to Famlies with Dependent Children and was not living with
the relative. Any child in the custody of the State child welfare agency is eligible for
medical and dental benefits. Relatives are not excluded from any social services which the
State makes available to non-related foster parents.

Permanency Options

Children with permanent plans callng for   them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. The courts may order children placed in permanent foster care with the relative.
The agency continues to support and monitor permanent foster-care placements.
WISCONSINll

Children in the custody of the Bureau of Children, Youth and Families routinely are
provided foster care by relatives. There are  no situations defined by regulation that
automatically preclude consideration of relative placements for children.

The Bureau       s data system cannot separately identif            all placements with relative.
Administrators stated, however, the number of children placed with relatives has remained
relatively stable over the last five years.

AIJIJroval and Monitorinl! of Relative Foster Homes

The State licenses foster family homes for receiving children in the custody of the State.
All relative foster homes must be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health, safety, and space standards; and
relatives must be capable of providing care and protection for the children
demonstrated through a psychosocial assessment. The Bureau may waive requirements
relatives cannot meet them.

The individual counties determine their own standrds for visiting foster homes. The
Bureau of Children, Youth and Family Services does not provide special training
concerning supervision of relative foster homes.

Financial and Other SUIJIJort Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maintenance payments if the foster
home is licensed and the family wants such reimbursement. Any child in the custody of the
State child welfare agency is eligible for medical and dental benefits. Relatives are not
excluded from any social services which the State makes available to non-related foster
parents.

Permnency OIJtions

Children with permnent plans callng for them to remain with relatives may be adopted
by relatives, with State support continuing only if the children are eligible for subsidized
adoption. If the Bureau successfully petitions to terminate parental rights, but has no
adoptive homes for children,
                           the children are considered in sustaining care. The Bureau
continues supporting and monitoring the placement. The court may approve moving
children into long- term foster care with the relatives. The agency continues to support and
monitor (on a reduced schedule) long- term, foster-care placements. Relatives may seek



         11 Itacs indicate State   staf did not   respond to our written request to verify interview infonnation
reported here.
guardianship for children through the courts. Once custody transfers to the relative foster-
care services and benefits are withdrawn.




WYOMING

Children in the custody of the Division of Public Assistace and Social Services routinely
are provided foster care by relatives. The Division also contracts with trbal authorities for
placement of Native American children, and most of these placements are with relative
foster-care providers. State policy demands staf consider relatives as the fIrst alternative
for foster-care placement. Ths requirement has been a par of     State policy since 1985.


The Division cannot identify relative foster-care placements , parcularly for Native
American children , but admistrators stated that the number of such placements had risen
greatly over the last five years. They cited child protective training focusing on the
importce of maintaining children s famly ties, and the formation of agency policy in this
area as the reasons for the shar rise in relative placements.

Approval and Monitorin~ of Relative Foster Homes

The Division licenses foster famy homes for receiving children in the custody of the
State. Relative foster homes can be licensed based upon the same criteria as non-relatives
homes: the relatives ' homes must meet basic health and safety stadards; and , relatives
must be capable of providing care and protection for the children as demonstrated though
psychosocial assessments, references, and limited criminal and records checks. Foster-care
licensing criteria may be waived, but the stadards usually do not present a barer to
relative placements.

Children also may be placed in unlicensed relative foster homes. These homes are
reviewed only for conditions that might jeopardize the health and safety of the children
placed there.

The decision to seek licensed status usually is made by the relatives, but judges ' rulings on
the custody of children often order the Division to license relatives. Administrators could
not provide information concerning the proportion of licensed relative foster homes to
unlicensed relative foster homes , but they stated that most were licensed.

Foster-care staff must visit all children and foster parents every 30 days. The Deparent
of Human Services does not provide special training concerng supervision of relative
foster homes.
Financial and Other Support Services for Relative Foster Parents

Relatives who provide foster care receive foster-care maitenance payments if the foster
home is licensed and the relative requires such assistace. Any child in the custody of the
State child welfare agency is eligible for medical and denta benefits. Relatives are not
excluded from any social services which the State makes available to non-related foster
parents.

Permanency Options

Children with permanent plans callig for    them to remai with relatives may be adopted
by relatives , with State support continuing only if the children are eligible for subsidized
adoption. Children may be considered in permanent foster care with the State agency
continuing to support and monitor placements. Relatives may seek guardianship for
children though the court. Once custody transfers to the relative , foster-care services and
benefits are withdrawn.
